<html>
<title> - LIFE INSIDE NORTH KOREA</title>
<body><pre>[Senate Hearing 108-131]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 108-131

                         LIFE INSIDE NORTH KOREA

=======================================================================

                                HEARING

                               BEFORE THE

                       SUBCOMMITTEE ON EAST ASIAN
                          AND PACIFIC AFFAIRS

                                 OF THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                               __________

                              JUNE 5, 2003

                               __________

       Printed for the use of the Committee on Foreign Relations


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 senate



89-499              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001


                     COMMITTEE ON FOREIGN RELATIONS

                  RICHARD G. LUGAR, Indiana, Chairman

CHUCK HAGEL, Nebraska                JOSEPH R. BIDEN, Jr., Delaware
LINCOLN CHAFEE, Rhode Island         PAUL S. SARBANES, Maryland
GEORGE ALLEN, Virginia               CHRISTOPHER J. DODD, Connecticut
SAM BROWNBACK, Kansas                JOHN F. KERRY, Massachusetts
MICHAEL B. ENZI, Wyoming             RUSSELL D. FEINGOLD, Wisconsin
GEORGE V. VOINOVICH, Ohio            BARBARA BOXER, California
LAMAR ALEXANDER, Tennessee           BILL NELSON, Florida
NORM COLEMAN, Minnesota              JOHN D. ROCKEFELLER IV, West 
JOHN E. SUNUNU, New Hampshire            Virginia
                                     JON S. CORZINE, New Jersey

                 Kenneth A. Myers, Jr., Staff Director
              Antony J. Blinken, Democratic Staff Director

                                 ------                                

                       SUBCOMMITTEE ON EAST ASIAN
                          AND PACIFIC AFFAIRS

                    SAM BROWNBACK, Kansas, Chairman

LAMAR ALEXANDER, Tennessee           JOHN F. KERRY, Massachusetts
CHUCK HAGEL, Nebraska                JOHN D. ROCKEFELLER IV, West 
GEORGE ALLEN, Virginia                   Virginia
GEORGE V. VOINOVICH, Ohio            RUSSELL D. FEINGOLD, Wisconsin
                                     JON S. CORZINE, New Jersey

                                  (ii)

  
?

                            C O N T E N T S

                              ----------                              
                                                                   Page

Hassig, Dr. Kongdan Oh, research staff member, Institute for 
  Defense Analyses, Alexander, VA................................    21
    Prepared statement...........................................    24
Ji, Mrs. Hae-Nam, North Korean defector; accompanied by T. Kim, 
  interpreter....................................................    13
    Prepared statement...........................................    16
Liang-Fenton, Ms. Debra, executive director, U.S. Committee for 
  Human Rights in North Korea, Washington, DC....................    25
    Prepared statement...........................................    29
Linton, Dr. Stephen W., chairman, Eugene Bell Foundation, 
  Clarksville, MD................................................    33
    Prepared statement...........................................    35
Nam, Dr. Jai, Citizens Coalition for Human Rights of Abductees 
  and North Korean Refugees......................................    21
Natsios, Hon. Andrew S., Administrator, U.S. Agency for 
  International Development, Washington DC.......................     3
    Prepared statement...........................................     6
Nolan, Dr. Marcus, senior fellow, Institute for International 
  Economics, Washington, DC......................................    39
    Prepared statement...........................................    40
United States Commission on International Religious Freedom, 
  statement submitted for the record.............................    50

                                 (iii)

  

 
                        LIFE INSIDE NORTH KOREA

                              ----------                              


                         THURSDAY, JUNE 5, 2003

                               U.S. Senate,
    Subcommittee on East Asian and Pacific Affairs,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 1:34 p.m., in 
room SD-419, Dirksen Senate Office Building, Hon. Sam Brownback 
(chairman of the subcommittee), presiding.
    Present: Senator Brownback.
    Senator Brownback. This hearing of the Foreign Relations 
Subcommittee on East Asian and Pacific Affairs on ``Life Inside 
North Korea'' will come to order.
    I would like to begin by thanking the chairman of the full 
committee, Senator Lugar, and his staff for guidance and input 
on this very complex issue.
    Our first panel will feature Andrew Natsios who comes to us 
as Administrator of the U.S. Agency for International 
Development. Welcome, Mr. Natsios. In that capacity, Mr. 
Natsios oversees the considerable food aid made available by 
the United States to the rest of the world, but Mr. Natsios is 
also the author of the book, ``The Great North Korean Famine,'' 
and is a most available source of information on the challenges 
facing average North Koreans fighting for survival. So he comes 
not only as an administration official, but also with 
considerable expertise on North Korea, and we are delighted to 
have you here.
    On the second panel, we have someone who can provide an 
important firsthand account of life inside North Korea. Ms. Hae 
Nam Ji is a survivor of the North Korean prison system, and 
after some time in China came to South Korea where she now 
resides. She has faced unimaginable horrors, and we appreciate 
her courage in sharing her story with us today.
    The third panel will feature a series of experts, and I am 
sure we will receive a wide range of information about 
conditions inside North Korea from that panel.
    Let me begin by describing today's hearings by explaining 
what it is not. This is not about nuclear power plants, weapons 
of mass destruction, drug-running, or proliferation, or threats 
from Pyongyang, though each of these issues are of vital 
importance.
    Today's hearing focuses on something often overlooked, but 
just as significant: life inside North Korea. Today's hearing 
will provide a glimpse as to what goes on inside the most 
closed society on Earth.
    This hearing comes at a particularly important time. One 
year ago, the world watched dozens of North Korean escapees 
overcome considerable odds and gain freedom at various 
diplomatic missions in China. Since that time, North Korea has 
admitted to possessing nuclear weapons and has threatened both 
its neighbors and the United States with war.
    Today's hearing helps to ensure that North Korea cannot use 
its bellicose rhetoric to obscure its true nature from the 
world. As I have said before, North Korea's is today's 
``killing field,'' a place where repression, deprivation, and 
depression rule the day.
    There are, as best as anyone can tell, as many as 300,000, 
perhaps as few as 30,000, North Koreans living in hiding in 
northeast China. At a hearing last year, Senator Kennedy and I 
explored this issue in great detail. I believe that today we 
can both extend and expand what was started that day. There is 
much to expound upon regarding this topic; however, we want to 
do our due diligence by exploring all angles of the situation 
inside North Korea.
    First, some 200,000 North Koreans languish inside North 
Korean prison camps, gulags. Satellite photos corroborate the 
testimony of survivors. North Korea's gulag recalls the horrors 
of the Soviet Union under Stalin. Beatings, assaults, abuse, 
malnutrition, forced labor, death are the threads that always 
seem to link the story of one survivor to another.
    Second, the strange and contradictory principles of so-
called socialism and the near worship of the Kim dynasty place 
great constraints on North Korean society. This is a world of 
suspicion where even a perceived slight against the government 
can mean a prison sentence.
    Finally, millions of North Koreans died of starvation 
during the severe famines of the 1990s. Those deaths have as 
much to do with incompetence and, one might easily conclude, 
indifference from the government and government policies as 
they did with natural floods and natural disaster. While the 
nation has recovered from the depth of its famine, millions 
continue to go hungry and are fed by international food 
donations. With a defunct national food distribution system, 
the North Korean people can only hope that international food 
aid will arrive and feed them before it is diverted to North 
Korea's bulging Armed Forces.
    North Korea policy experts often debate whether North Korea 
will soon collapse. To date, Kim Jong-il has regrettably defied 
several predictions of his government's demise. The Kim dynasty 
could end tomorrow or it could survive the decade. But one 
thing is clear: We cannot turn our back on millions of 
suffering North Koreans while we wait for real change to move 
north of the DMZ.
    There are those who would argue that we must first resolve 
our outstanding security concerns with North Korea before we 
discuss the North Korea regime's internal behavior and how we 
should treat North Korean refugees coming out. I believe this 
approach is short-sighted. It is the regime in Pyongyang which 
spews nuclear threats at the rest of the world. It is that very 
same regime which spawns an exodus of its own citizens hoping 
to escape the depravity and death of their homeland.
    Our North Korea policy must not only protect our interest 
in East Asia but support the cause of freedom across the entire 
Korean Peninsula. In the end, a brighter, fuller, free, and 
open Korean Peninsula is our ultimate national interest.
    Mr. Natsios, we are delighted to have you here at this 
hearing today as the administration witness, as the 
Administrator of the U.S. Agency for International Development, 
but also as an expert on North Korea and what is taking place 
in North Korea to the North Korean people. I look forward to 
your testimony and questions.
    I might announce ahead of time that you have a prior 
commitment with the Appropriations Committee, and I always 
understand those conflicts, now that I've gone on the 
Appropriations Committee, and that you'll have to leave at 
about 5 minutes to 2. So we will try to conclude by that time.
    Welcome to the committee and the floor is yours.

STATEMENT OF HON. ANDREW S. NATSIOS, ADMINISTRATOR, U.S. AGENCY 
         FOR INTERNATIONAL DEVELOPMENT, WASHINGTON, DC

    Mr. Natsios. Thank you, Senator Brownback.
    What I would like to do is submit my testimony for the 
record----
    Senator Brownback. Without objection.
    Mr. Natsios [continuing]. And make five or six points 
quickly, and then leave some time for questions and answers. I 
think this might be more productive in terms of getting more 
information out.
    I became involved with North Korea as a result of my 
position as a senior executive with World Vision and as a 
leader of the Emergency Relief Committee of Interaction, which 
is a consortium of American NGOs in the city. That began in the 
fall of 1996, but accelerated in 1997 and 1998. I took a 
fellowship at USIP after I left World Vision in June 1998 for 8 
months to write this book.
    When I was with World Vision in June 1997, I went to North 
Korea for a week, but I really could not tell what was going on 
based on the fact that it is a police state and it is very 
difficult to tell what is going on from inside the country. I 
am convinced, if you really want to find out what is going on, 
you need to talk to defectors and refugees and cross reference 
their testimony to make sure you get an accurate picture.
    So I went up to the North Korean border with a Buddhist 
monk friend of mine, the Venerable Pomyong, who is a South 
Korean Buddhist monk who heads Good Friends. It used to be 
called KBSM, the Korean Buddhist Sharing Movement. He had a 
network at the time--he no longer has it, it has been dispersed 
by the Chinese police--that helped refugees, and he had 
extensive networks that allowed us to conduct interviews. I 
interviewed 25 North Korean refugees for about 3 hours each in 
December 1998. And my conclusions are based on that research, 
as well as research I have done since.
    There are essentially five principles that describe the way 
in which the North Korean Government treats its people and why 
they behave the way they do internally.
    The central operating principle that drives all of the 
decisions of the central government is regime survival. The two 
best friends of Kim Jong-il and Kim Il-sung, his father who 
died in the mid-nineties, were Honecker, the Communist dictator 
of East Germany, and Ceausescu in Romania. You know what 
happened to the two of them. Ceausescu and his wife were 
executed by the military in a coup called the Revolution, and 
Honecker went on war crimes trials after his regime fell when 
Soviet support was withdrawn. There is a terror in the senior 
leadership of North Korea that the same thing is going to 
happen to them. So Kim Jong-il has been quoted as saying, to 
defectors whom I interviewed, we must maintain control at all 
costs or this is going to happen to us.
    The second proposition is that it is very difficult to tell 
what is going on in North Korea because they maintain a level 
of control that is far beyond almost any totalitarian 
dictatorship of the 20th century. In the Soviet Union, there 
was a whole underground movement. There was an underground 
church movement. There was Samizdat literature, which was 
Xeroxed and spread around. There was a huge black market that 
existed after Stalin died that in fact made the country 
marginally functional and allowed some space for people to 
live. That does not exist in North Korea. At least, it did not 
until the mid-nineties. There are fissures in the state 
apparatus of terror that have appeared since the famine which 
traumatized North Korean society far more than anybody 
realizes.
    My expertise is really not in North Korea per se. I have 
learned a lot as I was researching this. My expertise is in 
famine. This was a great famine. It killed about 10 percent of 
the population, 2.5 million people. My friend, the Venerable 
Pomyong, thinks it is close to 3.5 million. As time has gone 
on, I think my figure is conservative, to be very frank with 
you.
    Ten percent of the population of the country died a slow 
and painful death in such horrible ways, with mass graves all 
over the country, piles of dead bodies in the railway stations, 
refugees crowding along the border--I actually saw dead bodies 
on the riverbanks of the Tumen River. It is the Yalu and Tumen 
Rivers that divide China and North Korea. I was told once by 
someone, an intelligence agency that will remain nameless, 
there was no evidence of mass graves. I watched a mass burial. 
Twenty-five bodies were dumped into a large pit. We had 
binoculars. We were looking right on the border, across the 
river into one of the large cities on the river. This was a 
large cemetery. It was on a mountainside overlooking the Tumen 
River. And we watched the burial take place. There was a large 
pit and about a couple dozen men took these bodies off a truck, 
dumped them into the grave, then it looked like they were 
praying or something, and they started dumping the dirt in. And 
South Korean and Japanese TV have photographed mass graves 
along the river. So it is no secret.
    No one in a Confucian society would bury people in a mass 
grave unless they were displaced and no one knew who they were. 
That is why they were buried there, we conclude, from the 
customs of North Korean society. They died trying to escape. 
They probably came up from the south somewhere, they died along 
the border, and they were buried in these mass graves, which 
are all along the border area.
    The third proposition is that system that crumbled in the 
mid-nineties was essentially, we'll give up all our freedom and 
private life, in exchange for which you will take care of us 
from our cradle to our grave. That was sort of the unspoken, 
unwritten compact that existed in North Korean society. The 
problem is now you give up all your freedom and you get nothing 
in return because the public services that did exist up until 
the mid-nineties have virtually collapsed. The health care 
system has collapsed. Large portions of the schools have 
collapsed as educational institutions, particularly for the 
poorer classes of people in society. Concerning the public 
distribution system, they have virtually announced that it does 
not function effectively anymore in much of the country. It 
does exist still in the capital city for people in defense 
industries that produce something of value that they can 
export, and for the party cadres and the military. The military 
has a separate rationing system in the public distribution 
system [PDS]. The PDS may exist in name. It has not existed as 
a food rationing system since the mid-nineties.
    Pomyong did 1,600 interviews through his organization. 
These were extensive interviews which were done in a very 
careful manner. The data shows a dramatic collapse. They went 
from 60 percent of the population that was supported by the PDS 
in the early 1990s to about 7 percent in the middle of the 
famine. So you can see a dramatic drop in the PDS support 
levels.
    The fourth proposition is that Kim Il-sung did have 
widespread support. He was able to do this because they 
controlled all information. It was a totalitarian dictatorship, 
but the cult of personality did work. It does not work anymore, 
and I think the famine has a lot to do with this.
    I had an interview with someone who said the only people 
that survived in his village--it was in the northwestern part 
of the country--survived as a result of going to China to live 
during the famine, bringing food back, or at least regaining 
their health on the markets. What they said was that without 
the coping mechanism of moving into China, none of them in the 
village would have survived. Everybody who refused to leave 
died in the famine, in this particular village.
    The movement of people in China collapsed the lie that was 
given to the North Korean people about life outside because the 
North Korean people are told that, while they are suffering, 
the world outside of North Korea is in the middle of a civil 
war and a famine so horrible you cannot even imagine it.
    I went through rural China. I was astonished at the 
prosperity. In very remote areas at night, you would see in 
people's windows the television on in people's homes. This is a 
very prosperous farming area. These North Koreans remember the 
stories from the Cultural Revolution where people were dying 
during the Great Leap Forward from 1958 to 1962 in China where 
30 million people died of starvation, in the worst famine in 
recorded history. They remember the Cultural Revolution, the 
civil war that took place during that period. It was virtually 
a civil war. And they thought it was still going on until they 
went to China and saw that people are well-fed. There is no 
hunger in that area of China that I could detect anywhere. It 
was extremely prosperous by Chinese standards.
    And the North Koreans saw it and said, ``They have been 
lying to us all these years. They have been lying to us.'' And 
they went back into the country, and they told me what they 
said. ``We told everybody in the village this is all a lie. We 
have been told we are better off. We are not better off. We 
have been told that China is in the middle of a civil war and a 
famine. It is not true. They are not.''
    ``And more importantly,'' these refugees told me, ``we 
found out that South Korea is far richer than China. It is a 
Western industrialized society. It is very prosperous and we 
are dying while they live as kings in South Korea because of 
the fact they have accepted capitalism and democratic 
governance.''
    The final thing I want to say is that the famine has caused 
irreversible changes to the old order. While the regime did 
attempt in 1999, once the famine was over, to return to the old 
order, they could not do it. It was impossible to reconstitute 
the system the way it existed before. Why is that?
    One, it is because of the economic collapse of the society. 
The subsidies from China and Russia ended in the early 1990s, 
and that was the steady collapse of the economy that the 
country is still suffering from.
    The second reason is the famine traumatized the society to 
such an extraordinary degree that it will be in the historic 
memory of the society for a very, very long time. It is not 
simply the hunger. It is the fear of a return to that, and I 
would argue that once you go through a famine, you can never go 
back psychologically.
    Anyway, those are my comments. Now I have used most of my 
time up. So a few minutes for questions.
    [The prepared statement of Mr. Natsios follows:]

   Prepared Statement of Hon. Andrew S. Natsios, Administrator, U.S. 
                  Agency for International Development

    Chairman Brownback, Members of the committee: It is an honor to be 
here today to discuss ``Life Inside North Korea.'' As you may know, 
during the North Korean famine I have researched the living conditions 
of the average North Korean for many years with a particular focus on 
their food security. I have traveled inside the country, visited the 
border areas in China, and interviewed North Korean refugees in a 
number of countries.
    My testimony will be based on five propositions about the nature of 
the North Korean regime and the way in which it controls North Korean 
society.

  <bullet> The central operating principle which drives all of the 
        decision making of the North Korean government is regime 
        survival and protection of the system which supports it at all 
        costs because the leaders believe that reforming the system 
        could lead to its collapse.

  <bullet> No totalitarian regime of the last century has exercised a 
        greater degree of absolute control over its society than the 
        North Korean government, though cracks began to appear in the 
        state apparatus of terror beginning in 1996 because of economic 
        collapse and the famine crisis.

  <bullet> The unwritten and unspoken compact prior to the famine was 
        that the people surrendered their freedom in exchange for which 
        the state agreed to care for them, heavily tempered by 
        political loyalty, from cradle to grave. This compact began to 
        crumble by 1996 as virtually all public services including the 
        food distribution system collapsed except those serving the 
        party cadre, the security apparatus, and the capital city.

  <bullet> While the regime under Kim Il Sung had widespread public 
        support prior to the crisis of the 1990s, the famine, the 
        collapse of services, and the rise in the human misery index 
        have meant a substantial decline in public support even among 
        the party cadres for Kim Jong Il and his government, which now 
        more than ever relies on the state security apparatus and 
        military to maintain control.

  <bullet> The economic crisis of the 1990s, which led to a famine that 
        killed more than 2\1/2\ million people, or 10% of the 
        population of the country, has caused irreversible changes to 
        the old order and the system which supports its.

    It is a fact that no government in the world is more reclusive, 
more suspicious of contact with the outside world, more isolated, and 
more devoted to absolute control and secrecy than North Korea. This 
fact makes it difficult, but not impossible, to develop an accurate 
understanding of conditions in the country. We now have more 
information on life in North Korea than at any time in the recent past. 
Extensive reporting is available, from a wide variety of reputable 
sources, which paints a consistent and all too clear picture of the 
Orwellian society that exists in North Korea today. Human Rights Watch, 
Jasper Becker's research and reporting on the famine, Good Friends (a 
South Korean Buddhist nongovernmental organization), Amnesty 
International, Johns Hopkins School of Public Health, Doctors Without 
Borders, and Action Contre la Faim, among others, have reported 
extensively on their direct experiences in the country and on the 
results of interviews with North Korean refugees and defectors. 
Additional evidence exists in professional journals and an increasing 
number of private books which describes in great detail the lives of 
specific individuals who have lived in North Korea.
    There are apologists for the North Korean government who contend 
that the regime in North Korea is not as repressive, controlling, and 
brutal as I am about to describe. They are wrong. North Korean refugees 
have often described their country as one massive prison.

                    EVERY ASPECT OF LIFE CONTROLLED

    Mr. Chairman, life in North Korea today is less free and less 
humane than life in any other country now or in modern time. Every 
aspect of life is controlled and every bit of individualism destroyed. 
This is not simply the result of a totalitarian regime. There have been 
many totalitarian regimes that have aggressively, even brutally, 
controlled their citizenry. Upon review, however, most other recent 
totalitarian regimes have allowed some measure of private freedom in 
the lives of the people if they avoided dissent and did not threaten 
the political system. In the case of North Korea, we have no evidence 
of underground dissent, as there was in the Samidazat literature in the 
Soviet Union, for example. Buddhism and Christianity have been 
virtually destroyed as religious institutions in the country.
    On March 31, 2003, the State Department's Bureau of Democracy, 
Human Rights, and Labor released its country report on human rights 
practices for North Korea. That report provides an accurate and 
balanced description of life inside North Korea today, and I strongly 
support its findings.
    In order to convey the true horror that is life in North Korea, I 
would like to discuss a number of aspects of the North Korean regime 
that help explain the extent to which all aspects of life are 
controlled and regulated.

                     THE POTEMKIN VILLAGE SYNDROME

    When discussing the regime's control over the population of North 
Korea, many people cite the surveillance and monitoring capability of 
the large military and security service apparatus. While it is true 
that these organizations have their eyes and ears imbedded throughout 
the country, it is not these physical controls that give the regime its 
power over the population. The regime in North Korea derives the vast 
majority of its influence over the minds and hearts of the people 
through its absolute control and manipulation of all information made 
available to the local population. By controlling what a person hears, 
reads, and sees, one controls what he or she thinks and believes.
    In North Korea, all aspects of the media are controlled completely 
by the regime. Newspaper, radio, and television reporting are all 
centrally managed and convey only the messages that the regime 
condones. Radios and televisions in the country are built to receive 
only State approved stations, and any attempt to modify a set to 
receive foreign broadcasts is a criminal offense. A system of travel 
permits modeled after Stalinist Russia restricts the movement of people 
outside their villages. Even travel between counties and provinces by 
individuals is severely restricted to prevent the transfer of 
information between different groups in the country. As an example of 
how restricted the travel of North Koreans within their own country can 
be, the United Nations World Food Program (WFP) staff have reported 
that, on many of their monitoring visits throughout the country, their 
handlers reveal that the trip is their first visit outside the county 
where they lived.
    Today in North Korea, maintaining control of information remains of 
paramount concern to the regime. In fact, given the informational 
contamination that has been precipitated by the humanitarian crises 
over the last eight years, regaining control of the population's access 
to information has taken on new importance. Since the mid 1990s, the 
flow of international food assistance has been accompanied by 
international staff who insist on following the food for monitoring 
purposes. In addition, beginning in 1997, the United States insisted on 
labeling each bag of U.S. food donated to North Korea with the phrase 
in Korean ``gift of the people of the United States.'' By some 
estimates, there are over 30 million Korean-marked bags circulating 
around North Korea. Each visit by a foreign humanitarian monitor and 
each food aid bag distributed around the country represent 
informational contamination that requires an explanation by the regime. 
In the case of the food bags, refugees have reported that the U.S. food 
aid is explained as reparations for damages caused during the war.
    It has also been suggested that the aversion of the North Korean 
regime to providing greater access and more random monitoring for 
humanitarian workers has little to do with military security--which is 
the regime's excuse of record. Instead, broader access around the 
country and the more random monitoring of humanitarian deliveries are 
believed to concern the regime because it would lack the means to 
control the flow of information that the expansion of these systems 
would induce.

                 FOOD ALLOCATION AS A SYSTEM OF CONTROL

    In North Korea, a ``public distribution system,'' or PDS, was used 
to provide both food and many material needs to the majority of the 
population. In addition, the PDS was used to promote loyalty to the 
regime and prevent or limit the travel of the population. In their 
book, North Korea after Kim Il Sung, Henriksen and Mo state that, 
``Food ration levels were traditionally determined by a combination of 
social rank, the importance of one's profession to the state, and 
political status.'' The ration system promotes loyalty to the regime, 
as any misconduct, real or perceived, could result in demotion to a 
lower rank of the scale and thus less food for the individual. The 
ration system severely regulates the desire of the beneficiaries to 
move around the country as the beneficiaries must be present at their 
local PDS station to receive rations.
    The collapse of the PDS, except for the party elite, capital city, 
security apparatus, and the defense industries, has meant that this 
means of controlling behavior has declined in importance. The collapse 
of the PDS, which the central authorities were unable to reverse, was 
finally acknowledged when the authorities announced in 2001 that people 
were responsible for feeding themselves (except for the groups 
mentioned above).
    Since 1995, when the international community began providing food 
assistance to North Korea, the needs of the most vulnerable groups--
presumably those among the lower ranks of the food system--have been 
the focus of international aid. Unfortunately, there are increasing 
reports that the most vulnerable are not receiving the international 
assistance despite the best efforts of the international community.
    On March 9, 2000, the nongovernmental organization, Action Contre 
la Faim (ACF), issued a report explaining its decision to withdraw from 
North Korea. ACF had been working in North Korea since January of 1998, 
attempting to provide humanitarian assistance to the most vulnerable in 
the country. One major justification that the organization cited for 
closing its program was the regime's denial of access to the most 
vulnerable people. The ACF report stated:

          By confining humanitarian organizations to the support of 
        these state structures that we know are not representative of 
        the real situation of malnutrition in the country the 
        authorities are deliberately depriving hundreds of thousands of 
        truly needy Koreans of assistance. As a consequence any 
        humanitarian assistance provided is only helping the 
        populations which the regime has chosen to favour and support, 
        and which are certainly not the most deprived.

    Today, the United States is leading the international community in 
its efforts to address some of the programmatic deficiencies that 
undermine the credibility and effectiveness of the international food 
aid activities in North Korea. The UNICEF and WFP-sponsored nutrition 
survey in North Korea that was completed in November of 2002 clearly 
shows that there are no longer famine conditions in the country. The 
survey also shows that, while the nutritional situation has improved in 
the country in the aggregate, the improvements are uneven and focused 
predominantly in the areas in and around Pyongyang and Nampo. Both the 
Pyongyang and Nampo districts have malnutrition rates about half as 
high as some of the northern provinces. As a result, current and future 
food aid activities will require greater access and monitoring 
capabilities to ensure proper targeting and delivery of food assistance 
to those most in need.

                               HEALTHCARE

    The healthcare system in North Korea has been in a steep decline 
since the beginning of the 1990s. Without the economic support from the 
Soviet Union, the ability of the regime to purchase medicines and 
maintain the medical infrastructure immediately began to fail. Today, 
notwithstanding a relatively well trained staff, the healthcare system 
in the country has all but collapsed. Only the elites at the highest 
level have access to modern medical care. Today, the only access that 
the average North Korean has to modern medicine is either through the 
black market or, if extremely lucky, through international assistance 
programs. Generally, herbal or traditional medicines are used by the 
average North Korean, unless they have the financial capability to 
purchase the needed medicines from the black market.
    Following visits to hospitals in North Korea, international aid 
workers have reported that even the larger regional hospitals have no 
regular electricity, little or no medicines, and no functioning modern 
medical equipment. Smaller hospitals are even less equipped. Only those 
medical facilities that receive direct assistance from international 
aid agencies can be expected to have any resources to address the 
medical needs of the local population.
    As a result of the almost total lack of modern healthcare and poor 
water and sanitation systems in North Korea, the country is a breeding 
ground for communicable diseases. Currently, tuberculosis, malaria, and 
hepatitis B are considered to be endemic to the country, and other 
diseases if introduced into the country could have a devastating effect 
on the population. In particular, the possibility is great that SARS 
will enter the country through the porous border with China. The regime 
is making strenuous efforts to restrict the movement of people into the 
capitol city via air, including a 10-day quarantine for every traveler 
to Pyongyang. However, similar measures are not being undertaken at 
land crossings. If the disease takes hold, the impact would be 
tremendous.

                    CONCENTRATION RE-EDUCATION CAMPS

    The regime in North Korea operates approximately ten concentration 
or ``re-education'' camps for political prisoners. The Far Eastern 
Economic Review has published satellite photographs of one camp that is 
estimated to hold as many as 50,000 people. The ten camps are estimated 
to hold between 200,000 to 250,000 prisoners in total. The regime uses 
the camps to punish anyone who fails to adhere strictly and completely 
to every ``law,'' but arrest and confinement can come at any time with 
no explanation. In some reports, people have been arrested and detained 
for years for failing to show appropriate respect to the ``Great 
Leader'' or the ``Dear Leader.'' In other cases, entire families have 
been arrested because flaws have been found in their family history.
    The camps differ in that each serves a specific type of prisoner 
generally ranging from those considered ``redeemable'' to those who are 
``expendable.'' Those who are redeemable are often released after a 
number of years of hard labor and re-education. Expendable prisoners 
are never expected to leave the camp and usually die of malnutrition, 
exhaustion, and abuse. Two recent books provide graphic explanations of 
deplorable conditions in the more ``lenient'' re-education camps: 
Aquariums of Pyongvang by Kang chol-Hwan and Eyes of Tailless Animals 
by Soon Ok Lee. Torture is widespread along with gradual starvation 
from the minimal food rations.

                      ATTEMPTS AT ECONOMIC REFORMS

    In June of 2002, the regime in North Korea introduced a number of 
economic reforms. These reforms, which included raising the prices of 
staple food commodities, increasing wage rates, and devaluing the Won, 
were apparently intended to stimulate the agricultural sector and 
promote increased industrial productivity.
    Unfortunately, the reforms instituted by the regime in North Korea 
have not improved the economic situation in the country. As Bradley 0. 
Babson stated in his report, Economic Cooperation on the Korean 
Peninsula, ``the reforms are not sufficient to assure a turnaround in 
DPRK's economic crisis and even add new risks, particularly the risk of 
inflation.'' While the risk of inflation as a result of the reforms is 
significant, the humanitarian community is more concerned about the 
large segments of the population who have seen their ability to support 
themselves decline or disappear. As the World Food Program points out 
in its 2002 report on its operations in North Korea, ``Surplus labour 
created by a reform-induced drive for industries to become more 
efficient is supposed to be redeployed by the state and continue 
receiving a salary. However, . . . there may be insufficient capacity 
to absorb a potentially significant labor force.'' Recent reports 
indicate that unemployment and underemployment particularly in the 
northeastern parts of the country are a significant and growing 
problem. Obviously the unemployed do not receive a salary and therefore 
are incapable of taking advantage of any ``improvements'' in food 
availability. In addition, the agricultural system remains mired in the 
collective farms, and thus higher food prices have not resulted in 
increased food production.
    Mr. Chairman, it is astonishing to me that the international 
humanitarian and human rights community, which has been so outspoken in 
its condemnation of human right violations in countries like Burma and 
Sudan, has been so late in acknowledging the reality of life in North 
Korea and the nature of the regime. The President has reversed this 
relative international silence on what the North Korean regime is 
really about in his many comments on North Korea and through the 
aggressive reporting of the State Department (Democracy, Human Rights 
and Labor Bureau reports).
    We will continue our efforts at every opportunity to publicize the 
true nature of the North Korean government and, through our 
humanitarian programs, to effectively and transparently address the 
most urgent needs of the people. Since 1995, our humanitarian programs 
have provided almost two million tons of food aid to North Korea, 
valued at approximately $650 million.
    Mr. Chairman, this concludes my testimony. I would be pleased to 
answer any questions the committee may have.

    Senator Brownback. Do you believe that the Kim Jong-il 
regime is near to collapse at this point in time, given the 
factors that you have articulated?
    Mr. Natsios. I do not. I think the regime has been 
substantially shaken to its very roots, but there is no 
evidence that they are on the edge of collapse right now from 
what I can see. I believe if they go into another famine, the 
country will be destabilized.
    We have evidence of three attempted coups or planned coups 
that were discovered by the regime. I discovered one, which I 
report in my book. I have discovered two since then. These were 
small things, but it is pretty clear that they took place or 
were attempted. All the people involved were taken out and 
shot. I had a defector actually tell me a friend of his watched 
the 24 officers being taken out of a building and executed 
right on the spot for having gotten involved in the coups. It 
was in Hamhung City and it was at the height of the famine that 
this first coups took place, though there was unrest in the 
people's army as a result of the coups. The people's army is so 
large it meant that a large number of families had soldiers in 
them whose family members had died in the famine.
    The same thing happened in China in 1962. The reason the 
Great Leap Forward famine ended, and Mao reversed himself, is 
because there was a secret party document that said there is 
going to be a coups or a mutiny in the people's army of China 
unless you stop this famine, because it is causing unrest. When 
people go back to their villages and see everybody dying, they 
go into a rage. It is affecting morale and there is going to be 
a revolt. And Mao reversed himself. The same thing, I am 
convinced, took place in North Korea.
    The difference is Mao did not know until later that the 
famine was taking place. People lied to him. Kim Jong-il knew 
the famine was taking place from the beginning. He was given 
regular reports. He wanted to know how many people died. He 
tracked the whole thing. In fact, they kept a food distribution 
that basically appears to have fed the people who were in the 
elite class that ran the country or people whose loyalty was 
not questioned. The people who came from a questionable 
background or were disloyal or former prisoners who survived 
the gulag, they died.
    Senator Brownback. I understand that there is a huge gulag 
system and that at the same time, the regime imports, while its 
people are starving, luxury tobaccos, wines, luxury cars. Is 
that true? Is that taking place, that the elite in the regime 
are living very high?
    Mr. Natsios. Well, I took a Mercedes Benz when I was with 
World Vision from the airport to the hotel where we were 
staying. It was a new model and it was very nice. There is a 
report that a large shipment of Mercedes Benz did go to North 
Korea during the famine. One shipment was sent back because 
they would not deliver the check before it arrived. A lot of 
Western businesses had had trouble. They would deliver the 
stuff and never get paid. So many of them realize now if you 
want to get paid, you have to get the check before the stuff 
arrives. But another shipment did arrive. Apparently they paid 
the money from some source, and it arrived.
    There is clearly the case that the elites at the top levels 
of the cadre live a very prosperous life. There is evidence 
from the famine in the northeastern region, which is where it 
was most severe, that even cadre members died. We estimate that 
about 50,000 Communist Party cadre members died, but they were 
at the lower levels. These are not the upper elites.
    It is a highly class-conscious society and there were 62 
categories of people in a hierarchical order, almost in the 
Confucian sense of one order being subordinate to the other. In 
the upper reaches of that order, people live very, very well.
    Senator Brownback. Mr. Natsios, I would ask if the 
administration could consider releasing information that it 
has, to the degree it can, on the gulags, on the lifestyle of 
the people higher up, and on the system and the famine. I think 
this would be very illuminating to people to see and to hear 
and to understand. This is the sort of information that I am 
receiving from interviews of refugees. We will have people here 
today to talk that are refugees or people that have been able 
to find their way out and to show here is what is happening to 
the North Korean people. To the degree that the administration 
could release some of that information that you have that has 
not been released, I think it would be very helpful in 
showcasing to the world how horrific the people in North Korea 
live.
    Mr. Natsios. Two final comments before I excuse myself. The 
first is that here is a book written by someone who was in a 
gulag for 10 years. It is called ``Aquariums of Pyongyang,'' 
and it is a powerful book, very riveting book. It was written 
by a French human rights specialist but dictated by this young 
man who spent 10 years with his family in the gulag. It 
describes how he survived.
    I want to just add one last thing. I keep reading in the 
news media that the country is on the edge of famine. There is 
mass starvation. The famine ended, in terms of high levels of 
mortality, in the spring of 1998 and it has not returned. They 
have liberalized prices in an attempt to go to a market 
economy. They did not liberalize the rest of the system. So 
they have very high food prices in the farmers' markets where 
most of the people eat now, and people's salaries have not gone 
up, which they promised they would do, to meet that need. And 
more importantly, while food prices have gone up, they have not 
privatized the agricultural system. So there is no incentive to 
produce more food because it is still a state-run collective 
farming system.
    But there is no famine. Is there misery? Yes, absolutely. 
Is there hunger among the lower classes in North Korean 
society? Hunger remains a terrible reality. But we are not 
seeing any evidence of mass starvation in North Korea. The 
apocalyptic statements by some organizations about that are 
grossly misinformed and, I think, are not serving the 
international humanitarian system properly because we do not 
always have enough humanitarian relief to go around. Sending 
food where you really do not need it does not make sense.
    There are parts of North Korea, in the northeast 
particularly, which remain food-insecure in even a good year, 
and there are areas among the lower classes where there is 
hunger and a need for a modest response. But we do not need to 
have a famine response in a country that is not in the middle 
of a famine.
    Senator Brownback. There was a recent committee hearing 
about drug-running being done by the North Korean Government, 
state-run poppy farms. Is that accurate?
    Mr. Natsios. We could not figure out why farmers I 
interviewed said they had a third of their land in their 
villages not farmed. There is a certain Korean word they used, 
and Pomyong and I could not figure out why land would be 
unfarmed. I found that out recently. The term in North Korea 
means the land is put aside for poppy production. They shrewdly 
substituted a word meaning fallow land for poppy production. So 
it is actually state-managed, state-run, and there is an 
allocation made in the state farms for actually producing 
poppy. It is not illegal. It is encouraged.
    Senator Brownback. Thank you very much, Mr. Administrator.
    The next witness will be Ms. Hae Nam Ji. She is a North 
Korean escapee that I am pleased will be testifying.
    As she comes forward with her interpreter, I would like to 
introduce to the people here a group of South Koreans who are 
here who have family members who were abducted by North Korea 
sometime during or after the Korean conflict, and these are 
people that represent organizations and they themselves have 
had family members abducted by North Korea and who have not 
been returned. If I could, I would like to have those people 
stand who are here representing those abducted from South 
Korea. Could you please stand?
    We are pleased that you would be willing to come in. 
Earlier today I was able to meet in my office with this group 
of individuals who have had family members abducted by North 
Korea and not returned.
    They were noting to me--and I thought this was very 
important--that the abduction of the Japanese by the North 
Koreans had received a great deal of international notoriety, 
but the abduction of South Koreans by North Korea has not. 
There were some 80,000 abducted during the Korean War and since 
then there are documented about 485, I believe, 486 that have 
been abducted from South Korea by the North Koreans and not 
returned. Now, several have been found and have surreptitiously 
been taken back out of North Korea.
    But this group is to be recognized and commended for their 
staying with this and drawing attention to this issue of their 
family members being taken, many for 20 to 30 years and not 
heard from since and then put in supposedly horrific conditions 
in North Korea, but they have not heard from them. So I 
appreciate very much your attendance here at our hearing today.
    The next witness, as I stated, would be Mrs. Hae Nam Ji. 
She is an escapee from a North Korean prison camp. She will 
have an interpreter give her statement. I am delighted to 
welcome you here to the committee, and the floor is yours to 
testify.

STATEMENT OF MRS. HAE-NAM JI, NORTH KOREAN ESCAPEE; ACCOMPANIED 
                     BY T. KIM, INTERPRETER

    Mrs. Ji. Mr. Chairman, I would like to first thank you for 
giving me this opportunity to talk and give testimony to the 
real state of affairs in North Korea.
    Due to the restriction in time that I have to testify 
before you, I would like to submit my prepared statement in its 
entirety, and I would want that you accept that statement.
    Senator Brownback. It will be accepted and put into the 
record.
    Mrs. Ji. I was born on May 17, 1949 in Namun-ri, Hamhung 
City. During my grown-up, adult life, I worked as a North 
Korean propagandist specialist.
    While I was working as a propagandist specialist for the 
North Korean Government, I was charged of violating their law 
which I didn't think reasonable at all, that was, I sang a 
foreign song which I was not allowed to do. For that crime, I 
was prosecuted without trial and I was made subject to sexual 
harassment and torture, and those pains and trials, ordeals 
that I am going through are beyond human description.
    Senator Brownback. Could I ask you? It was for singing a 
song, did you say?
    Mr. Kim. Yes, sir, singing a song by the title of ``Don't 
Cry Hongdo.'' That is a South Korean song, and that was 
forbidden in North Korea to sing.
    Senator Brownback. Don't Cry Hodho?
    Mr. Kim. Hongdo. Hongdo is the name of a woman.
    Mrs. Ji. And I was sentenced 3 years to prison because of 
that crime.
    Of course, the charge was obviously that I did not sing the 
songs in praise of the North Korean leader Kim Il-sung and his 
son, Kim Jong-il, and I was charged of spoiling the mentality 
of the North Korean populace by polluting them with South 
Korean songs, and I was also charged with attempting to 
disseminate ideas of revisionism to their orthodox of their 
national policy.
    So I was jailed and imprisoned soon after I was charged 
with violating North Korean law, and the charge again was 
simply I sang the song that was forbidden in North Korea. Once 
I was put in prison, I was allowed to have only a few grains of 
corn and with salt soup and was put to forced labor and there 
was not enough energy there, for we have to move whatever 
machine with human effort. That is, we have to keep motors run 
under pressure, and all the mistreatment that I suffered from 
that prison is beyond, again, description by any human being or 
human imagination. And if we did not meet the deadline or the 
quota of work that they have imposed on us, we were given a 
very minimum amount of food, even the food amount for a daily 
meal is only 80 grams a day, but nevertheless, if we did not do 
our job right, that amount would even be further reduced.
    Again in the prison camp, life is beyond human description. 
Instead of going through and failing to go through such an 
ordeal of unimaginable degree of torture and pain, many inmates 
would attempt to commit suicide by taking nails or taking a lot 
of salt into their body, then getting sick. And I would see 
almost two or three inmates were dying on a daily basis while I 
was there.
    What I thought was intolerable for any human being was once 
we were in the prison and there were prison guards of 
relatively younger ages, they would violate the women inmates, 
harass sexually, and they will make such a situation in which 
inmates fight each other. Again, this is beyond imagination of 
any person who lives elsewhere outside North Korea.
    Intolerant of the atrocities that the North Korean regime 
was practicing upon its own people and fed up with the 
disguised policy of the North Korean Government which I thought 
corrupt and illegal--and let me put it this way. It was like 
they were just covering what is black with white cloth. I just 
did not think I could tolerate it anymore. So I decided to 
escape from North Korea in 1998 to China with the intention to 
finally reach the free land of South Korea.
    For those North Korean escapees who made a successful 
escape to the land of China, mostly women, they are sold to 
China's men and they will just have whatever abuse and 
advantage of possessing North Korean women. Many North Korean 
women get impregnated, and then if they get caught, then they 
will be sent back to North Korea for either being subject to 
being shot to death or put into jail or prison again, and they 
will let die from hunger and starvation. Nevertheless, the 
North Korean Government does not feel any responsibility or 
sense of guilt about these situations.
    And in some cases women are sold not just one time to one 
Chinese man, but over and over again for money, none of which 
goes into the hands of these poor women.
    The escapees are constantly pursued and hunted by the 
police, and to run away from these police chase, escapees would 
hide in rest rooms or a warehouse or sometimes brick factories' 
oven or hide in deep mountains. And nevertheless, it was very 
difficult for these people to hide themselves away from these 
security personnel who are constantly after them to catch them 
and trying to turn over back to North Korean authorities. This 
is the kind of treatment we received, and I would say that is 
only subhuman in any standard.
    So even in China, we were mistreated like I have just 
described to you, and it is not just in my case, but many other 
North Korean women who successfully somehow made escaping to 
China had to go through the same mistreatment and the same 
misfortune that I told you about. I do not think that could be 
allowed to happen on this Earth.
    So people in North Korea believe the only way they can live 
would be escaping to South Korea somehow, and I attempted the 
same thing to reach South Korea, but I was caught in the course 
of escaping to South Korea. I was sent back to North Korea, put 
into prison again, and made subject to severe, indescribable 
torture and pain. And they tramped on my legs telling me that I 
can never run away from North Korea again, and I still feel 
pains from that incident.
    But I was lucky enough to be able to escape from the prison 
again and I was determined to escape North Korea again. In the 
course of my escape, I wanted to stop by in Hamhung where I 
wanted to see my son and my brother. When I got there, I found 
my brothers and my son all starved to death. They all died. 
They weren't there anymore. For this crime, I can never forgive 
the North Korean regime.
    And my determination was made even stronger as far as my 
intention to get to South Korea. But I did not have any money 
to arrange means of transportation or route to get to South 
Korea. So what I had to do was we had to steal a Chinese boat, 
and I used that boat. And while voyaging to South Korea, I was 
caught by Chinese guards this time again.
    I might say for those who are ready to die, maybe death 
does not come to them. So I finally made my way to South Korea 
on January 14, 2002. Since then with the care of the South 
Korean Government, I have been able to lead a rather 
comfortable and peaceful life.
    I simply, Mr. Chairman, could not be content with comfort 
of life, easy life in South Korea, because I had to think of 
all the North Korean people that I left behind and what 
unbearable ordeal they are going through. And I determined and 
decided to participate in human rights movement in an effort to 
bring some hope to people in North Korea. And I would like to 
see the entire world and all government agencies, including 
your honorable committee, tell the world what kind of crimes 
the North Korea Government is committing, and I would like to 
see democracy be brought to North Korea, as well as abuse of 
human rights and infringements upon human rights be ended in 
North Korea. It is my will to fight for this cause as long as I 
live.
    I do not think it is my personal pain that I have 
experienced but this pain is shared with all people who live in 
North Korea today and especially women who would like to leave 
that country and come out like I did for a better life.
    And to conclude my oral testimony, I would like to 
emphasize that Kim Jong-il, the North Korean leader, does not 
care about his people, whether they are dying from hunger or 
from diseases. I did not see any North Korean Government 
official feel guilty of this tragic situation.
    In order to survive, to live on, the North Korean people 
are trying hard to leave their country with tears in their 
eyes, not knowing exactly where they can go for safety, roaming 
around in China, for example. Nevertheless, there is no one who 
will take responsibility for those or who would help these 
people.
    As my wish and request, I hope this committee can recognize 
North Korean escapees as legitimate refugees by the 
international standard, and this committee, along with the 
government and whoever, they can render help. I wish there 
would be establishment of a refugee camp for their safety and 
protection of their future. The venue for this refugee camp can 
be a third country, either China or Mongolia. The purpose for 
this is so that we can protect the safety of these refugees. I 
would like to ask you, Mr. Chairman, and other members of this 
committee to work together to bring about this possible.
    [The prepared statement of Mrs. Ji follows:]

      Prepared Statement of Mrs. Hae-Nam Ji, North Korean Defector

    I was born in Namun-ri, Hamhung city, Hamkyungnam-do on May 17, 
1949. My family was poor but I graduated from a college of light 
industry. As a propaganda member, I went around explaining and 
promoting party policy to everyone in several factories. I shouted out 
slogans such as ``What the Party Decides, We Follow'' encouraging all 
workers with my songs to complete their tasks within the set timeframe. 
In 1989 when the 13th Party Convention was held I began having 
skepticisms about the inappropriate actions of party cadres. At that 
time anyone who raised an issue against the wrongdoings of the deified 
cadres was punished. Against this backdrop, I divorced my husband who 
failed to take care of my family in 1989.
    I sank into depression managing to stay afloat by selling my own 
blood because I was unable to find a job. Then on the night of December 
25, 1992, my friends gathered together in Hamju-kun, Hamkyungnam-do. 
That night I tried to drown my sorrows away by singing. Five people 
including a fortuneteller who read palms, and three friends came 
together to sing and dance. I enjoyed time with my friends by having 
fun and singing a South Korean song called ``Don't Cry Hongdo.'' I 
learned the song from a film based on President Park Jung Hee's time 
called ``Nation and Destiny'' where a singer belts out ``Don't Cry 
Hongdo'' in a cafe in the fifth series.
    A few months later on May 15, 1993 an inspector from the Security 
Protection Agency of Hamju-kun Hamkyungnam-do summoned me. I followed 
him without a second thought to the grounds of the Security Protection 
Agency. However to my dismay I was locked in jail with no further words 
or going through preliminary hearing (place where interrogation takes 
place before being incarcerated).
    The beatings I received in jail were so severe that my entire body 
was bruised and I was unable to get up for a month. I was sent to an 
enlightenment center after receiving a sentence of three years. I was 
confined in the Security Protection Agency of Hamju-kun for being the 
leader of disseminating revisionism in the society instead of singing 
songs of loyalty to Kim Il Song and Kim Jong Il. At that time according 
to the decree regarding social order, those who criticized the social 
order, those who sang foreign songs, those who wasted state assets, 
those who ate but did not work, those who drink, those who swindle were 
harshly punished and were even subject to a death sentence.
    The four people who were together with me that night received a 
sentence of eight months of forced labor while I was sent to the 
Security Protection Agency in Myungchun-kun, Hamkyungbuk-do after 15 
days in the Security Protection Agency in Hamju-kun, Hamkyungnam-do for 
teaching ``Don't Cry Hongdo'' to the four others. I was subject to 
torture and sexual harassment that cannot be imagined by another human 
being. The detention center guards were around 22-24 years old. I was 
mortified and wanted to die rather than be locked up. I tried 
swallowing cement cut into four pieces of squares as well as sewage, 
rubbish and hair but I didn't die.
    From then on the guard increased surveillance and I wasn't able to 
do anything without them watching. That is when I was once again moved 
to the Security Protection Agency in Hwasung-kun. Even though the 
Administration of the Preliminary Hearing made a call to say I wasn't 
subject to a preliminary hearing, judicial officers managed to send the 
confined people to penal servitude by adding some other defects. As I 
was accused of a misdemeanor of simply singing a wrong song, my 
preliminary hearing was relatively lighter than others. Imagine what 
the others with more serious sentences endured?
    The daily ration in the enlightenment center was 700g however we 
only received 180 grams a meal since the rest of the ration was set 
apart as ``economy rice.'' For the new comers who were sent to new 
``inmate class'' the ration was 100 grams per meal. I became so 
emaciated that I felt that the pickled cabbage they provided together 
with the ration was the most delicious food.
    The convicts were put into labor from 8 in the morning till 6 in 
the evening officially. However we normally had to work 22 hours for 
any urgent tasks the state mandates. In addition the male guards would 
summon female inmates to their offices under the pretense of individual 
interrogation and sexually harass them without hesitation. After work 
each day, for an hour, a mutual criticism session was held. The inmates 
would give false accusations against others or else a portion of their 
ration was taken away.
    I was released in September 1995 from the enlightenment center out 
of the supposed special consideration of the Dear Leader. I was sent to 
Hamju-kun but doors to jobs were closed for me as a released convict. I 
felt hurt because people would turn their backs on me and at that time, 
my husband and beloved son came to make amends and I accepted my 
husband back out of forgiveness. With the stigma of being a released 
convict during the time of an economic crisis, I had to resort to 
selling my blood to transfusion centers to feed my husband and son. I 
walked 200-250 ri(393m) a day as a peddler but my husband ran away with 
my son taking the money I saved up with him.
    I then decided to defect to China with South Korea in mind as the 
final destination. Disgruntled with the corrupt regime, cut off from 
the society and my family, I turned away from my son and cursed North 
Korea as I fled in early September of 1999. I had 1000 won in North 
Korean currency when I took the train headed for Tuman River and 
arrived at Musan in Hamkyungbuk-do where they check passes since it is 
close to the border. I hid inside restaurants and bribed the innkeeper 
to take shelter and sleep during the night. I brought 200 won worth of 
food on top of 200 won in cash to a guard from National Border Patrol 
in Musan telling him that I will give him more when I come back from 
China after selling my merchandise. He believed me and let me pass and 
I arrived in China after crossing the Tuman River at 3:30 p.m. Even the 
soldiers are starving in North Korea that they would do anything for 
money and their goal is to accrue 500,000 won by the time they are 
dismissed from the military service.
    They would not shy away from doing anything to get their hands on 
money regardless of military regulations. I was able to use this 
opportunity to escape to China by crossing the Tuman River and hid in 
the mountains until night fell. I went down to the village and asked an 
ethnic Korean family to let me sleep one night but was refused. 
Anxious, I stayed awake all night in a shed eating pre-ripe fruits. The 
next day I was caught by the owner of the grove who held me as a 
captive for eating too many fruits. A car drove into the pear grove 
when we were working at three in the afternoon and I quickly lowered 
myself into the pepper field to hide in vain but was captured and 
pushed into the car. I was frightened because I thought they were North 
Korean soldiers but I was brought to a place called Long Jiang in Ji 
Lin. Along with another woman, I was locked up in a widower's house. 
The other woman was sold the next day and I became the sexual toy of 
the lone old man. I couldn't resist because I was afraid I would be 
sent to the Security Service. For 15 days I became the sex toy of a 
widower, looking out for any opportunity to escape while getting some 
food into my stomach. Then one day an ethnic Korean offered to take me 
to my sister's house in Heilongjiang. I followed what ever he told me 
because I was afraid only death would await me if I was captured by the 
Security Service. However I realized later that the widower gave me to 
the other ethnic Korean because he had no money.
    Eventually, I was sold for 4000 yuan to a Chinese in Hwangnihu 
Tonghua Ji Lin and had to live in his house against my will because Ji 
Lin was a city with tight security. The Chinese man's height was only 
145 cm and he had a very strange appearance. During my stay at his 
house, I had to hide inside the closet for hours whenever policemen 
came to investigate. Afraid that I would escape, he installed locks on 
every door and I was kept inside all day. I even had to relieve myself 
inside the room. At night I was reduced to becoming a sex toy of 
someone who looked like a monster and only the thought of escaping 
ruled my every moment in the house.
    The man became suspicious that I was thinking of escape and he 
brought me to the brick factory where he worked to watch over me day 
and night. Whenever the Security Service rushed in I would flee to the 
mens toilet and stay there for hours and even had to hide myself in the 
brick oven until I felt as if my whole body would burn. Even on the 
coldest winter days I had to hide for hours in the rubbish storage 
place. Several times, I hid in the closet in the factory changing room. 
Chinese men would come to where I hid because they thought North Korean 
women were pretty. They would stare at me as if I was an animal in the 
zoo and sexually molest me and their actions were revolting. I didn't 
have any chance to escape for several months.
    Then with the help of an ethnic Korean I lead the Chinese man to my 
sister's house near Heilongjiang. I used this chance to follow my 
sister's friend to Weihai Shandong where I found work in a restaurant. 
I was humiliated and insulted during the three months at this 
restaurant because I was a woman from North Korea. I was not paid on 
time and I had to do the most arduous and dirty tasks but I never 
complained because I feared that even a small slight might cause them 
to send me to the Security Service. I was determined to go to South 
Korea so I only worked and tried not to think. With the small amount I 
managed to save, along with six other North Koreans, I bought oil, 
life-jackets, binoculars and a compass with 700 yuan.
    We made out to a beach in Weihai and succeeded in stealing a 
speedboat at around midnight. As we headed for South Korea the gauge 
broke down and water filled in the boat and a Chinese fisherman rescued 
us at daybreak after spending the night fighting against high waves. We 
had 50 yuan tied around our thighs and a saw in case if we were caught 
to use the saw in order to break free or commit suicide.
    The six of us stayed together trying to seize another opportunity 
when a South Korean gave us 3000 yuan. We bought life jackets, 
binoculars, compass and some bread. After stealing a motorboat we 
waited for a good day to start off when the weather would be mild in a 
place called Hopo in Weihai. We left at 12 midnight but the boat broke 
down several times and three days had passed but we had not reached the 
international waters yet. It became stormy and a typhoon came upon us. 
A woman called Chunsil became sea sick and kept dropping in and out of 
consciousness. We thought we were destined to die in the sea until we 
spotted two ships towards South Korea with our binoculars. After making 
a quick calculation we thought we were near South Korean waters and 
waved a white sheet believing the two ships to be South Korean but they 
were Chinese boats. We tried to flee from getting captured but were too 
tired.
    We were confined for fifteen days by the Chinese border guards and 
our money 1000 yuan was taken away from us. A North Korean man was 
shackled for trying to escape from the guards and the females were also 
shackled even when we went to the bathroom. I demanded that the 
shackles should be taken off because we were not yet proven to be 
criminals so I yelled in a high voice that I will jump out from the 
third floor window if the shackles were not removed. However instead of 
taking the shackles off, a male security guard kept watch over me all 
through the night by standing right next to me when I slept. For 
fifteen days I was questioned shackled. I persisted in arguing that I 
was a South Korean but I had to remain in shackles because no one 
believed me. The ten days I was confined in the security service jail 
was traumatic. The Chinese inmates were quite free to do what they 
wanted but we, two North Korean females, were starved for three days. 
We could not go to the bathroom freely, we did not have toilet paper 
and were treated as animals.
    The Chinese Security Service sent us to Tandong Detention Center 
where thirty out of fifty inmates at the detention center were North 
Koreans. The female Chinese Security Service guards stripped us naked 
and made us jump 30 times to see if we hid any money in our vagina. 
They even tried searching by inserting their hands in our vagina. I had 
swallowed 400 yuan anticipating that I would be searched thoroughly and 
was badly treated until I was repatriated to a jail of the Security 
Affairs Agency in Shinuiju, Pyunganbuk-do North Korea early December. 
We were treated like animals for the twenty days detained in jail. 
Women were both impregnated and contracted venereal diseases during 
their confinement in China. No one was normal. Pretty women were 
confined in a solitary room to be used as sex toys. The inmates were 
beaten and given 50 grams of half-cooked maize filled with insects. A 
pregnant woman used to bite off and eat her own nails because she was 
craving for food. A woman with venereal disease would rub salt on her 
lower body out of pain. Could you believe this is a place for human 
beings?
    The other women were caught in China but since Chunsil and I were 
caught trying to defect to South Korea, our punishment was more severe. 
We were locked up in separate rooms beaten with clubs. I developed 
hemorrhoids and wasn't able to sit on the cold floor of the jail. I had 
to lie face down with my bottom up in the air moaning like a mosquito. 
After 20 days I was sent to a detention center where they began to 
select inmates to release after seven weeks. I thought I would be 
released because I was selected as a monitor before anyone else but I 
realized they were just going to release me as an example to prove that 
even those who were repatriated from China are released. I found out 
that I was to be arrested again when I reached home. I limped my way to 
Musan, Hankyungbuk-do arriving at Hamhung station on the morning of 
January 1st. All my family members except two brothers were dead and I 
wasn't able to find out about my son, if he was alive or not.
    With a heavy heart, I crossed the ice thin waters from Musan at 3 
in the afternoon to China. This time I was fortunate to meet kind 
ethnic Koreans who I stayed with for seven weeks doing odd jobs. With 
their help, I returned to Weihai and hid myself in the office of a 
Korean company. For three months, I hid up in the mountains whenever 
the Chinese Security Service searched the area. I left in October 2000 
and passed through four Southeast Asian countries within a span of four 
months and arrived in South Korea January 14, 2002. I could fill up 
thousands of pages about my suffering in jails but I would like to stop 
here.
    I would like to ask the human right activists and those working for 
human rights in North Korea to expose the human right abuses inflicted 
by the feudal and corrupt North Korean government to the world so that 
the people in North Korea could escape from a life of humiliation and 
live freely as soon as possible.

    Senator Brownback. Mrs. Ji, thank you very much for your 
heartfelt testimony and your incredible struggle for liberty. 
It is quite a testimony to all of us.
    I have a few questions I would like to ask.
    And this is not on the program, but I would like to invite 
up a representative of the South Korean abductee organization, 
if they would like to come forward to the desk here to be able 
to give a minute or 2 about their situation. I believe the 
abductee person to come forward would be Dr. Jai Nam. He is 
with the Citizens Coalition for Human Rights of Abductees and 
North Korean Refugees. If you would like to come forward now 
while we do this questioning, I would appreciate that.
    Mrs. Ji, am I pronouncing her name correctly?
    Mrs. Ji. Yes, sir.
    Senator Brownback. You just got out of North Korea in 2002. 
Is that correct?
    Mrs. Ji. I left North Korea in 1998 but arrived in South 
Korea in January 2002.
    Senator Brownback. So you spent 4 years then, if I 
understand your testimony, in China and several other 
countries, making your way to South Korea. Is that correct?
    Mrs. Ji. There is no way I could go to South Korea directly 
from China, but with the help of a South Korean Christian 
minister, I was able to journey through Vietnam, Cambodia, and 
finally Thailand from which I was able to go to South Korea.
    Senator Brownback. From 1998 to 2002, was most of that time 
spent in China and then just the last portion of it in transit 
through those three additional countries?
    Mrs. Ji. I spent a year of ordeal in China. I was captured, 
sent back to North Korea, spent half more year there, again 
subject to severe torture and harsh treatment. Then I escaped 
North Korea again, another year in China, not just in China but 
Vietnam and Cambodia and other places. Even in Vietnam I had to 
go through horrible trouble. I was caught once by the 
Vietnamese authorities as well.
    Senator Brownback. My point is because of your status as a 
refugee in North Korea and because of the harsh treatment that 
the Chinese give to North Koreans in China, you were subjected 
to horrific situations, sexual slavery, horrible conditions in 
China because the Chinese continue to hunt down North Korean 
refugees. Is that correct?
    Mrs. Ji. Yes, that was correct, and because I had to go 
through this ordeal because I knew once I was caught, sent back 
to North Korea, then I knew that I would be killed.
    Senator Brownback. In my estimation the Chinese Government 
is complicit in this by its harsh treatment of North Korean 
refugees, and this is counter to agreements that China has 
signed with the U.N. High Commissioner on Refugees that they 
would not send back refugees to a home country, in this case 
North Korea, where they know those refugees will be harshly 
treated, subject to imprisonment, if not death. And yet, the 
Chinese Government continues to hunt down North Korean refugees 
in China, subject them to the harshest of conditions inside 
China, and is complicit clearly in the horrific treatment that 
North Koreans are receiving particularly in China because as a 
refugee then, you have to hide, are sold to different people to 
be able to keep away from the Chinese authorities.
    You do not need to translate that in the interest of time. 
I really would like to just ask her, do you know of others or 
are there many others in North Korea who would like to escape 
but who cannot risk the journey that you took?
    Mrs. Ji. There are many who would like to escape from North 
Korea.
    Senator Brownback. Do many try and we do not know about it, 
or are they fearful and do not try?
    Mrs. Ji. Those who live in the northern province of 
Hangyangdo in North Korea are familiar with the border with the 
Chinese. So they are the ones who can attempt to escape or 
actually succeed in escaping. But if you are talking about the 
people who live in the south province Hamhung where I come 
from, although they want to escape and go to South Korea, they 
have just no way how they can achieve that.
    Senator Brownback. If there was an established refugee camp 
in China or Mongolia, where there would be not easy passage, 
but there would be safety once you achieved that location, 
would a number of people leave North Korea for the refugee 
camp?
    Mrs. Ji. I would believe that many would attempt to escape 
North Korea once they know, given information that there are 
refugee camps that will protect the safety of the refugees.
    Senator Brownback. Would there be thousands that would 
leave if they know they could get relatively safe passage to 
another country, once they made it to China?
    Mrs. Ji. It is really not easy. I would rather say it is 
difficult to guess exactly how many people would attempt to 
escape North Korea if that condition is met. But nevertheless, 
I would think around 60 percent of the entire people in North 
Korea would like to leave their country.
    Senator Brownback. What percent?
    Mr. Kim. Around 60; 6, 0.
    Senator Brownback. Thank you very much for joining us 
today. God bless you for your courage to do this.
    Mrs. Ji. Thank you, Mr. Chairman.
    Senator Brownback. Dr. Jai Nam with the Citizens Coalition 
for Human Rights of Abductees and North Korean Refugees. We 
worked you in the program, and the chairman in his office was 
willing to bring you in just for a quick 2 minutes about what 
it is your organization does and how many South Koreans 
abducted into North Korea do you think there are?

 STATEMENT OF DR. JAI NAM, CITIZENS COALITION FOR HUMAN RIGHTS 
             OF ABDUCTEES AND NORTH KOREAN REFUGEES

    Dr. Nam. Yes, Your Honor, indeed. We are the delegates 
representing South Korean abductees detained in North Korea.
    During the Korean War, more than 80,000 civilians were 
abducted to North Korea, and afterward until January 2000, the 
total number of 486 were abducted. Those are detained in North 
Korea.
    Till now, due to the lack of support and the negligence of 
the South Korean Government, our movement has not been 
activated well. Since we are here visiting the United States, 
the U.S. Congress, and the United Nations. We are supposed to 
meet the Secretary of the United Nations. Also like to visit 
North Korean Embassy in New York and to representing our 
situation.
    Well, let me tell you something. At this moment, one of 
South Korean abductees was safely escaped to the South Korean 
Embassy in Beijing. His name is Kim Byong Do. So hopefully he 
can safely return to South Korea. This is all. They left a 
little memo for me.
    Senator Brownback. How long ago was he abducted?
    Dr. Nam. It did not say. It could be mid-eighties.
    Senator Brownback. But he is now in the South Korean 
Embassy in Beijing but has not been allowed to pass to South 
Korea yet.
    Dr. Nam. Not yet.
    Senator Brownback. We will hope the Chinese Government will 
work to allow his safe passage on to South Korea.
    Dr. Nam. Yes.
    Senator Brownback. Thank you very much for being here and 
coming by to see me and being willing to stop here at the 
committee.
    Dr. Nam. Your Honor, one additional thing is hopefully if 
he comes to South Korea, if you invite him to the Senate 
hearing, we will deeply appreciate it.
    Senator Brownback. Thank you.
    Our third panel is Dr. Kongdan Oh Hassig, research staff 
member, Institute for Defense Analyses; Ms. Debra Liang-Fenton, 
executive director of The U.S. Committee for Human Rights in 
North Korea; Dr. Stephen Linton, chairman, Eugene Bell 
Foundation; and Dr. Marcus Noland, senior fellow of the 
Institute for International Economics. If you would all please 
come forward, we would appreciate your testimony. Thank you all 
very much for joining us.
    Dr. Kongdan Hassig, if you would please start out. Your 
full testimony will be put into the record. So you are free to 
summarize. Because of our hour and we have a set of stacked 
votes at 3:30, I will run the clock here at 5 minutes to give 
you a warning here of time. That is not a hard time period, but 
if you could keep the testimony fairly tight so we could have 
some questions, I would appreciate that very much.

 STATEMENT OF KONGDAN OH HASSIG, PH.D., RESEARCH STAFF MEMBER, 
         INSTITUTE FOR DEFENSE ANALYSES, ALEXANDRIA, VA

    Dr. Hassig. Thank you. Mr. Chairman, members of the 
committee, colleagues, and guests, I am extremely pleased to 
appear before you to discuss North Korea's social structure. I 
have been asked specifically to say a few words about the North 
Korean regime's political classification system.
    My brief presentation is in two parts: first, on North 
Korea's social structure in theory; and second, on social 
structure in reality.
    No dictatorship can afford to grant its people social and 
political equality, but the North Korean regime has constructed 
a more elaborate model of political stratification, 
discrimination, and persecution than most dictatorships, thanks 
in part to the fact that the current ruler, Kim Jong-il, and 
his late father, Kim Il-sung, have had over 50 years to perfect 
their political system.
    It is not uncommon to distinguish between those who, we 
believe, are with us and those who are against us. This is the 
basis of the political classification system in North Korea. In 
this case, ``with us'' is supposed to mean ``with the North 
Korean people in their struggle to achieve socialism.'' 
However, as the political classification system is used by the 
authorities, ``with us'' actually means ``personally loyal to 
Kim Jong-il and his regime.''
    The following brief description of the Kim regime's three-
part political classification system is condensed from a 
description in the book ``North Korea through the Looking 
Glass'' that I co-authored with Ralph Charles Hassig. A similar 
description also may be found in the annual white papers on 
human rights published by the Korea Institute for National 
Unification in Seoul, Korea.
    Since the 1950s, the Kim regime has subjected its people to 
a series of political examinations in order to sort out those 
who are presumed to be loyal or disloyal to the regime. After a 
3-year period of examination that began in 1967, then-President 
Kim Il-sung reported to the Fifth Korean Workers' Party 
Congress in 1970 that the people could be classified into three 
political groups: a loyal core class, a suspect wavering class, 
and a politically unreliable hostile class.
    Individuals are further classified into 51 subcategories, 
such as those in the wavering class who had been landowners 
before the Communists came to power, or those who had resided 
in the southern half of Korea before 1945, which is the year of 
liberation from Japanese colonialism. The political history of 
one's parents, grandparents, and relatives as distant as second 
cousins, is also a determining factor in the classification 
process. As of the most recent Party Congress, which was held 
in 1980, approximately 25 percent of the population fell into 
the core class, 50 percent fell into the wavering class, and 
the remaining unfortunate 25 percent were relegated to the 
hostile class.
    An individual's political loyalty is likely to be 
reexamined anytime he or she comes to the attention of the 
authorities, for example, when being considered for a job, 
housing, or travel permit. One's political classification is 
not a matter of public knowledge, nor is it known to the 
individual, but it is recorded in the personal record that 
follows every North Korean throughout life, and of course, 
becomes a part of the record of that person's children and 
relatives as well.
    Only people classified as politically loyal can hope to 
obtain responsible positions in North Korean society. People 
classified as members of the wavering class are unlikely to be 
considered for membership in the Korean Workers Party. People 
who fall into the hostile class are discriminated against in 
terms of employment, food, housing, medical care, and place of 
residence.
    This classification system is obviously an inefficient 
means of determining how committed a person is to socialism, or 
how loyal to the Kim regime. Many people with drive and talent, 
who in fact are patriotic North Koreans, are prevented from 
participating fully in North Korean life because their official 
record has been tainted by the historical political 
affiliations of ancestors and relatives. But for the Kim 
regime, people are largely expendable, and it appears to be the 
viewpoint of the regime that it is better to be safe than sorry 
when it comes to ensuring regime security.
    Now that I have briefly outlined this elaborate political 
classification system, which I think tells us a lot about the 
mind set of the North Korean leaders and their ideal for a 
utopian controlled North Korea society, let me caution you that 
appearance does not match reality.
    North Korean society is full of corruption. A North 
Korean's political history and the history of his or her 
parents, grandparents, and even distant relatives does, indeed, 
influence that person's life changes. But what matters even 
more is money.
    North Korea's socialist economy does not work. Most people 
live in poverty. Millions are constantly hungry. Government and 
party officials, including members of the several police and 
party organizations that compile and use this political 
information, bend the rules to make life better for themselves 
and their families.
    I do not think it is an exaggeration to say that North 
Korean society runs on bribes. It has become a way of life: a 
universal tax in a country that boasts that the people are free 
of taxation. All of the necessities that I mentioned above--
employment, food, medical care, housing and place of 
residence--can be purchased illegally. Protection from arrest 
or release from jail is likewise for sale. Only if one's case 
comes to the personal attention of Kim Jong-il, who has 
everything, is bribery of no use.
    In closing, let me suggest what this information about 
political classification tells us about the North Korean social 
structure today. That structure is broken. North Korea is not 
in fact a socialist economic system. Almost everyone turns to 
the underground market economy to survive. There is no rule of 
law. Only the rule of money and power.
    North Korean society is unstable as it lurches from one 
crisis to the next. But people have become adept at adjusting 
to circumstances, looking out for themselves and their 
families, and when possible, helping their neighbors and 
townspeople.
    Yet, because most North Koreans cannot leave their country 
and because none of them can contest the political system, 
social disorder in North Korea remains largely contained and 
will continue to be contained until people become aware of 
political alternatives to living under the Kim regime.
    Thank you.
    [The prepared statement of Dr. Hassig follows:]

   Prepared Statement of Kongdan Oh Hassig,\1\ Institute for Defense 
                                Analyses
---------------------------------------------------------------------------

    \1\ The views expressed in this testimony do not necessarily 
represent those of the Institute for Defense Analyses or its clients.
---------------------------------------------------------------------------
      political classification and social structure in north korea
    Mr. Chairman, members of the committee, colleagues, and guests. I 
am pleased to appear before you to discuss North Korea's social 
structure. I have been asked to say a few words specifically about the 
North Korean regime's political classification system.
    My brief presentation is in two parts: First, on North Korea's 
social structure in theory, and second, on social structure in reality.
    No dictatorship can afford to grant its people social and political 
equality, but the North Korean regime has constructed a more elaborate 
model of political stratification, discrimination, and persecution than 
most dictatorships, thanks in part to the fact that the current ruler, 
Kim Jong-il, and his late father, Kim Il-sung, have had over 50 years 
to perfect their political system.
    It is not uncommon to distinguish between those who (we believe) 
are with us and those who are against us. This is the basis of the 
political classification system in North Korea. In this case, ``with 
us'' is supposed to mean ``with the North Korean people in their 
struggle to achieve socialism.'' However, as the political 
classification system is used by the authorities, ``with us'' instead 
means ``personally loyal to the Kim Jong-il and his regime.''
    The following brief description of the Kim regime's three-part 
political classification system is condensed from a description in the 
book ``North Korea through the Looking Glass'' that I co-authored with 
Ralph C. Hassig. A similar description may be found in the annual white 
papers on human rights published by the Korea Institute for National 
Unification in Seoul.
    Since the 1950s, the Kim regime has subjected its people to a 
series of political examinations in order to sort out those who are 
presumed to be loyal or disloyal to the regime. After a three-year 
period of examination that began in 1967, then-president Kim Il-sung 
reported to the Fifth Korean Workers' Party Congress in 1970 that the 
people could be classified into three political groups: a loyal ``core 
class,'' a suspect ``wavering class,'' and a politically unreliable 
``hostile class.''
    Individuals are further classified into 51 subcategories, such as 
those in the wavering class who had been landowners before the 
communists came to power, or those who had resided in the southern half 
of Korea before 1945. The political history of one's parents, 
grandparents, and relatives as distant as second cousins is also a 
determining factor in the classification process. As of the most recent 
Party Congress, which was held in 1980, approximately 25 percent of the 
population fell into the core class, 50 percent fell into the wavering 
class, and the remaining unfortunate 25 percent were relegated to the 
hostile class.
    An individual's political loyalty is likely to be re-examined 
anytime he or she comes to the attention of the authorities, for 
example when being considered for a job, housing, or travel permit. 
One's political classification is not a matter of public knowledge, nor 
is it known to the individual, but it is recorded in the personal 
record that follows every North Korean throughout life, and of course 
becomes part of the record of that person's children and relatives as 
well.
    Only people classified as politically loyal can hope to obtain 
responsible positions in North Korean society. People classified as 
members of the wavering class are unlikely to be considered for 
membership in the Korean Workers Party. People who fall into the 
hostile class are discriminated against in terms of employment, food, 
housing, medical care, and place of residence.
    This classification system is obviously an inefficient means of 
determining how committed a person is to socialism, or how loyal to the 
Kim regime. Many people with drive and talent, who in fact are 
patriotic North Koreans, are prevented from participating fully in 
North Korean life because their official record has been tainted by the 
historical political affiliations of ancestors or relatives. But for 
the Kim regime, people are largely expendable, and it appears to be the 
viewpoint of the regime that it is better to be safe than sorry when it 
comes to ensuring regime security.
    Now that I have briefly outlined this elaborate political 
classification system, which I think tells us a lot about the mindset 
of the North Korean leaders and their ideal for a utopian, controlled 
North Korean society, let me caution that appearance does not match 
reality.
    North Korean society is full of corruption. A North Korean's 
political history, and the history of his or her parents, grandparents, 
and even distant relatives, does indeed influence that person's life 
chances. But what matters even more is money.
    North Korea's socialist economy does not work. Most people live in 
poverty. Millions are constantly hungry. Government and party 
officials, including members of the several police and party 
organizations that compile and use this political information, bend the 
rules to make life better for themselves and their families.
    I don't think it is an exaggeration to say that North Korean 
society runs on bribes. It has become a way of life: a universal tax in 
a country that boasts that its people are free of taxation. All of the 
necessities that I mentioned above--employment, food, medical care, 
housing and place of residence--can be purchased illegally. Protection 
from arrest or release from jail is likewise for sale. Only if one's 
case comes to the personal attention of Kim Jong-il, who has 
everything, is bribery of no use.
    In closing, let me suggest what this information about political 
classification tells us about North Korea's social structure. That 
structure is broken. North Korea is not in fact a socialist economic 
system. Almost everyone turns to the underground market economy to 
survive. There is no rule of law. Only the rule of money and power.
    North Korean society is unstable as it lurches from one crisis to 
the next. But people have become adept at adjusting to circumstances, 
looking out for themselves and their families, and when possible 
helping their neighbors and townspeople.
    Yet because most North Koreans cannot leave their country, and 
because none of them can contest the political system, social disorder 
in North Korea remains largely contained, and will continue to be 
contained until people become aware of political alternatives to living 
under the Kim regime.
    Thank you.

    Senator Brownback. Thank you very much. That is powerful 
thought and testimony.
    Ms. Liang-Fenton, thank you very much for joining us.

   STATEMENT OF DEBRA LIANG-FENTON, EXECUTIVE DIRECTOR, U.S. 
   COMMITTEE FOR HUMAN RIGHTS IN NORTH KOREA, WASHINGTON, DC

    Ms. Liang-Fenton. Thank you. On behalf of the U.S. 
Committee for Human Rights in North Korea, I would like to 
thank the chairs and organizers of the Subcommittee on East 
Asian and Pacific Affairs for convening this hearing. In 
particular, I want to thank you, Senator Brownback, for your 
perseverance and continued work on the pressing issue of human 
rights in North Korea.
    In my written submission, I have provide the subcommittee 
with my full testimony, outlining some of the key elements of 
the human rights nightmare underway in North Korea. Today I 
would like to highlight briefly some aspects of human rights 
abuse in North Korea with an emphasis on the prison camp 
system. The committee's researcher, David Hawk, is currently 
completing a report on this subject for publication this 
summer. In it, we hope to be able to provide the satellite 
images of many of the political prison camps and detention 
centers being used by the Kim Jong-il regime to exact 
punishment on those categorized as offenders. I will round out 
my testimony with policy recommendations that may help remedy 
some of these problems.
    For over 50 years, the people of the Democratic People's 
Republic of Korea have been denied even the most basic of their 
human rights. Human rights violations and abuses affect a large 
majority of the 23 million North Korean people. As Dr. Oh 
Hassig has just illustrated, there are tight social and 
religious controls. Access to food and health care is based on 
a system of loyalty to the regime.
    With respect to the political prisoners, prisons, and labor 
camps, since the turn of the millennium a growing number of 
North Korean defectors have obtained asylum in South Korea. A 
number of these North Korean defectors were either prisoners or 
guards in a variety of prison camps and detention/punishment 
facilities in North Korea. Their fragments of information 
continue to accumulate and now afford a closer look at the 
North Korean system of forced labor camps and the unimaginable 
atrocities taking place in Kim Jong-il's North Korea.
    From the accumulated information, it is possible to outline 
two distinct systems of incarceration in North Korea. Both of 
these exhibit exceptional violations of internationally 
recognized human rights norms: an extremely brutal gulag of 
political penal-labor colonies called kwan-li-so, along with 
prison-labor facilities called kyo-hwa-so; and a separate, but 
also extremely brutal system of imprisonment, interrogation, 
torture, and forced labor for North Koreans who are forcibly 
repatriated from China. This latter incarceration system 
includes jails along the China-North Korea border run by 
several different police agencies. Whatever the category, all 
the prison facilities are characterized by very large numbers 
of deaths in detention from forced hard labor accompanied by 
deliberate sub-subsistence food rations. The incarceration 
system for Koreans repatriated from China includes routine 
torture during interrogation and the abominable practice of 
ethnic infanticide inflicted upon pregnant women forcibly 
repatriated from China.
    The most strikingly abnormal characteristic of the prison 
camp system is the feature of collective responsibility, or 
guilt by association, wherein the mothers and fathers, sisters, 
and brothers, children, and sometimes grandchildren of the 
offending political prisoner are also imprisoned in this three-
generation arrangement. Former prisoners and guards trace the 
practice to a 1972 statement by Great Leader Kim Il-sung. 
Factionalists or enemies of class, whoever they are, their seed 
must be eliminated through three generations. According to the 
testimony of a former guard at kwan-li-so number 11, this 
slogan was carved in wood in the prison guards headquarters 
building.
    The other strikingly abnormal characteristic of this system 
is that the prisoners are not arrested or charged, that is, 
told of their offense, or tried in any sort of trial or 
judicial procedure where they can have a chance to confront 
their accusers or offer a defense with or without benefit of 
legal counsel.
    The most salient feature of day-to-day prison labor camp 
life is the below subsistence food rations, coupled with 
extremely hard labor. Prisoners are provided only enough food 
to be kept perpetually on the verge of starvation. It is 
important to note that subsistence food rations precede by 
decades the nationwide food shortages of the 1990s.
    I just want to show you a picture. This was an illustration 
done by one of the Gilsu family children while in hiding in 
China. This is Dae Han Gilsu at Amsang labor prison. This 
illustrates his meal which consists of a husk of corn, sesame 
seed dregs, cabbages, and the water used to wash the rice.
    Most basically the prison camp system is an outgrowth of 
the broader North Korean system for dealing with petty 
criminals charged or convicted of what would be considered in 
the United States to be misdemeanor offenses, except that many 
of these minor offenses would not be normally considered 
criminal, traveling within the country or leaving one's village 
or not appearing at the designated work site without official 
authorization or for leaving the country, a right guaranteed in 
the International Covenant on Civil and Political Rights to 
which North Korea is a state party, which should not be 
criminalized at all.
    Senator Brownback, you know very well the situation with 
the refugees in China, so I will just make three points on that 
subject.
    It is the nature of the political system in North Korea, 
with its discriminatory distribution of resources that makes 
feeding a family impossible in some areas. Being hungry does 
not necessarily prevent these people from also being oppressed. 
The criminal, political, and social persecution that 
accompanies forcible return to North Korea surely makes these 
people political refugees once they are in China.
    I will skip now to the policy recommendations and list some 
concrete steps that may help to improve the human rights of 
North Korean residents and refugees.
    One, emphasize human rights in policy. President Bush and 
all other government officials should take every opportunity 
publicly and privately to express concern for the plight of the 
North Korean people and the U.S. commitment to assisting in the 
restoration of their rights and well-being. During their most 
recent meeting, President Roh indicated at one point that 
without the help of the United States in 1950, he might be in a 
prison camp of Kim Jong-il today. President Bush should have 
pressed President Roh on this point by way of emphasizing the 
need to address the human rights crisis in North Korea.
    Two, pressure the North Korean regime to close down its 
brutal and repressive prison camp system.
    Three, pressure the North Korean Government to cease 
criminalizing the act of leaving the country without permission 
and severely punishing those who are forcibly repatriated.
    Four, the protections offered by U.S. law and policy to 
refugee populations in danger should be extended to North 
Korean refugees in China.
    Five, urge the U.N. High Commissioner for Refugees to take 
immediate action to press China to fulfill its obligations 
under the 1951 Convention Relating to the Status of Refugees 
and end its practice of cooperating in the forced repatriation 
of North Koreans.
    Six, press the UNHCR to invoke binding arbitration of the 
1995 agreement it has with the Chinese Government to secure its 
unimpeded access to North Korean refugees.
    Seven, encourage the Chinese Government to allow the UNHCR 
to operate under its full mandate, according to the 1995 
agreement. As China enters prominence in the international 
arena, it must take on the responsibilities commensurate with 
its status.
    Eight, help create an interim resettlement area in third-
party countries such as Mongolia to alleviate China of the 
burden of accommodating large numbers of refugees on its soil. 
Senator Brownback, you put it well in your paper, ``Mercy in 
Short Supply.'' The nations of the world, including the United 
States, should be prepared to share the burden of refugee 
resettlement.
    Nine, ensure that independent assistance organizations can 
provide famine and medical relief to the people most in need 
and can verify that this relief is reaching those whom it is 
intended to help. It is especially important that the 
distribution and monitoring of food aid be put in the hands of 
humanitarian assistance organizations and at a minimum be made 
transparent.
    Ten, find new ways to provide information to the people of 
North Korea, thus ending their enforced isolation. Develop 
multiple channels of exchange and contact. Increase radio 
broadcasting like Radio Free Asia.
    Eleven, develop and implement an international agreement 
modeled on the Helsinki Final Act, which linked Western 
recognition of the post-World War II borders of central Europe 
to a comprehensive set of human rights principles. While there 
is not much reason to believe that North Korea would honor such 
an agreement, the need at this time is to start a process. A 
Helsinki agreement for the Korean Peninsula could offer a lever 
with which to curb Pyongyang's worst abuses, open North Korea 
to greater international scrutiny, and help break down the 
isolation of the North Korean people.
    Twelve, U.S. Members of Congress should strategize and 
coordinate with counterparts in South Korea, Japan, and Europe 
on improving national laws to help the North Korean people. 
Such an initiative is currently underway. The next meeting of 
the Inter-Parliamentary Working Group on Human Rights in North 
Korea is scheduled to convene here in this building on July 16 
as part of a larger conference on Human Rights in North Korea. 
Senator Brownback, I hope we may look to you to play a key role 
in this session.
    And thirteen, pressure companies investing in or planning 
to invest in North Korea to develop a code of conduct similar 
to the Sullivan principles that were applied in South Africa to 
protect workers and other citizens.
    There have been important changes in North Korea in the 
past 5 years. The crisis of the regime is deepening, as 
corruption becomes endemic and the regime begins to lose its 
grip on the monopoly of information. The flow of North Koreans 
across the border with China has begun to open up the country. 
Radios are being smuggled back into North Korea in large 
numbers. One defector estimates that up to half of the North 
Korean population has or has access to a radio that can 
received AM/FM broadcasts from outside the country, and large 
numbers of people, including military officers, are listening 
to the Voice of America and Radio Free Asia broadcasts in 
Korean. One of the most important things that the United States 
can do is to increase radio broadcasting of news, information, 
and ideas aimed at the North Korean population.
    The United States should make human rights a major 
component of its relations with North Korea equal with the 
demand that North Korea stop developing nuclear weapons. If the 
United States only or mainly focuses on the nuclear issue, it 
risks Kim Jong-il's using that issue to shore up support for 
his regime.
    Senator Brownback. Let us wrap it on up, if we could here.
    Ms. Liang-Fenton. Thank you.
    Senator Brownback. I appreciate your thoughts, but I want 
to make sure we can get everybody before we have that series of 
votes.
    Ms. Liang-Fenton. Just to say that we do not want to 
deflect attention away from domestic failings of the regime. It 
will be easy for him to foment national sentiment if we just 
focus on the nuclear issue.
    Anyhow, I just want to say that now is the time to expose 
the brutality of the North Korean regime, and it is time to 
rise to the challenge and makes human rights in North Korea a 
U.S. policy priority. The people of North Korea deserve no 
less. Thank you.
    [The prepared statement of Ms. Liang-Fenton follows:]

  Prepared Statement of Debra Liang-Fenton, Executive Director, U.S. 
               Committee for Human Rights in North Korea

    Today, I would like to highlight briefly some of aspects of human 
rights abuse in North Korea, with an emphasis on the prison camp 
system. The Committee's researcher, David Hawk, is currently completing 
a report on this subject for publication this summer. In it, we hope to 
be able to provide the satellite images of many of the political prison 
camps and detention centers being used by the Kim Jong-il regime to 
exact punishment on those categorized as offenders. I will round out my 
testimony with policy recommendations that may help remedy some of 
these problems.

                     I. HUMAN RIGHTS IN NORTH KOREA

    For over 50 years the people of the Democratic People's Republic of 
Korea, have been denied even the most basic of their human rights. 
Human rights violations and abuses affect a large majority of the 23 
million North Korean people.

A. Social and religious control
    The population is subjected to a constant barrage of propaganda by 
government-controlled media. The opinions of North Koreans are 
monitored by government security. Independent public gatherings are not 
allowed, and all organizations are created and controlled by the 
government. The government forcibly resettles politically suspect 
families. Private property does not exist. Religious freedom does not 
exist. The ``religious'' activity that is allowed appears to have one 
of two purposes: to deify the founder of the DPRK, Kim Il Sung, and by 
extension his son the current leader, Kim Jong-Il; or to demonstrate to 
faith-based aid groups that some traditional religious activity is 
tolerated.

B. Access to food and health care
    The government of the DPRK divides the entire society into three 
classes: ``core,'' ``wavering,'' and ``hostile;'' there are further 
subdivisions based on an assessment of loyalty to the regime. As a 
result, as many as 18 million people may be denied equal access to 
decent education, employment, housing, medical care and food. Children 
are denied adequate education and are punished because of the loyalty 
classification of members of their families. Between 1995 and 1998, 
North Korea lost at least one million of its 24 million people to 
famine, food shortages, and related disease. The DPRK has refused to 
allow humanitarian aid organizations to assess the full extent of the 
crisis. Reports persist that food is being distributed on the basis of 
loyalty to the state, effectively leaving out those most in need.

C. Political prisoners, prisons and labor camps (kwa-li-sos)
    Since the turn of the millennium, a growing number of North Korean 
defectors and escapees have obtained asylum in South Korea. A number of 
these North Korean defectors were either prisoners or guards in the 
variety of prison camps and detention/punishment facilities in North 
Korea. Their ``fragments'' of information continue to accumulate and 
now afford a closer look at the North Korean system of forced labor 
camps and the ``unimaginable atrocities'' taking place in Kim Jung-Il's 
North Korea.
    From the accumulated information, it is possible to outline two 
distinct systems of incarceration in North Korea. Both of these exhibit 
exceptional violations of international recognized human rights: an 
extremely brutal ``gulag'' of political penal-labor colonies, called 
kwan-li-so in Korean, along with prison-labor facilities, called kyo-
hwa-so; and a separate but also extremely brutal system of 
imprisonment, interrogation, torture and forced labor for North Koreans 
who are forcibly repatriated from China. This latter incarceration 
system includes jails, along the China-North Korea border run by 
several different police agencies: short term provincial level 
detention-labor centers, and even shorter term more localized 
detention-labor facilities, called labor training camps. The political 
penal labor colonies include the repressive phenomena of life-time 
sentences for not only perceived political wrongdoers, but ``guilt by 
association'' for up to three generations of the wrongdoers families. 
Whatever the category, all the prison facilities are characterized by 
very large numbers of deaths in detention from forced hard labor 
accompanied by deliberate sub-subsistence food rations. The 
incarceration system for Koreans repatriated from China includes 
routine torture during interrogation and the abominable practice of 
ethnic infanticide inflicted upon pregnant women forcibly repatriated 
from China.
    The system of detention facilities and punishments for North 
Korean's repatriated from China is, in some ways, a separate phenomena 
from the life-time and longer-term imprisonment in the political prison 
camps and prison-labor camps. But this shorter-term detention/
punishment system is related in that both the provincial detention 
centers and the labor training centers use the same distorted, 
degenerate reform-through-labor practices as the kwan-li-so and kyo-
hwa-so. Both the long-term imprisonment and short-term detention 
facilities are characterized by below subsistence level food rations 
and very high levels of deaths-in-detention. And both the long term and 
short term detention facilities, and the police jails and interrogation 
centers that feed them are administered by both the Peoples Safety 
Agency police (who run the kyo-hwa-so prison-labor camps) and the 
National Security Agency police (who run the kwan-li-so).
    Most basically, the system is an outgrowth of the North Korean 
system for dealing with petty criminals charged or convicted of what 
would be considered in the United States to be misdemeanor offenses: 
short-term detention in provincial or sub-provincial detention 
facilities combined with the practice of reform-through-labor. Except 
that many of these ``minor'' offenses would not be normally considered 
criminal--traveling within the country, or leaving one's village, or 
not appearing at the designated work site without official 
authorization, etc. Or for leaving the country--a right guaranteed in 
the International Covenant on Civil and Political Rights (to which the 
DPRK is a State Party), which should not be criminalized at all.\1\
---------------------------------------------------------------------------
    \1\ While the ``right to leave'' is an internationally recognized 
``human right,'' there is no corresponding ``right'' to enter another 
country, which remain within the sovereign rights of states.
---------------------------------------------------------------------------

D. North Korean refugees in China
    The situation of North Korean refugees in China is desperate, and 
in many ways, it is a symptom of a larger, more pervasive problem. And 
that is the brutal nature of the repressive, totalitarian regime in 
Pyongyang. Leaving the DPRK is considered treason, punishable by long 
prison terms or execution. Yet the Voice of America estimates that as 
many as 300,000 North Koreans have fled-to China. With the onset of 
famine in the early 1990's, tens of thousands of North Koreans--the 
majority undernourished women and children--crossed into China's 
northeastern provinces. North Korean refugees currently in China live 
in fear of arrest, many women forced into prostitution or abusive 
marriages. Refugees are pursued by agents of the North Korean Public 
Security Service, and many are forcibly returned to the DPRK. The South 
China Morning Post has reported that the Chinese government has been 
offering rewards to those delivering North Korean refugees to police.
    China claims that it considers these refugees to be purely economic 
migrants. While hunger may be one motive for their movement, there are 
other realities:

          1. It is the nature of the political system in North Korea, 
        with its discriminatory distribution of resources that makes 
        feeding a family impossible in some areas.

          2. Being hungry does not necessarily prevent these people 
        from also feeling oppressed.

          3. The criminal, political and social persecution that 
        accompanies forcible return to North Korea surely makes these 
        people ``political'' refugees once they are in China.

    China is a party to the 1951 UN Convention Relating to the Status 
of Refugees, under which it has agreed not to expel refugees to a 
country where their life or freedom would be threatened. It has also 
signed the 1967 Protocol to the Convention, promising cooperation with 
the UN High Commissioner for Refugees. And the PRC is a party to the 
1984 Convention Against Torture, which says that no state can return a 
refugee to a country where there are substantial grounds for believing 
that he or she will be tortured. In addition, it is a party to the 1995 
agreement with the UNHCR--Article 3 stating that ``In consultation and 
cooperation with the Government, UNHCR personnel may at all times have 
unimpeded access to refugees and to the sites of UNHCR projects in 
order to monitor all phases of their implementation.''

                       II. POLICY RECOMMENDATIONS

    North Korean authorities deny that the practices described in this 
testimony exist and that human rights violations occur. Such 
governmental denials cannot be taken at face value. The only real way 
for North Korea to contradict or invalidate the claims and stories of 
the refugee accounts, especially with respect to the prison camps, is 
by inviting United Nations officials or representatives of the UN Human 
Rights Commission, or reputable human rights NGOs such as Amnesty 
International or Human Rights Watch, to verify or invalidate the 
allegations of former prisoners. Otherwise the refugee testimony 
stands.
    In the event that North Korean authorities decline to engage in 
constructive and substantive dialogue with UN human rights officials as 
the recent resolution by the UN Commission on Human Rights requested, 
it can only be hoped that sufficient resources will be found to enable 
South Korean NGOs or independent human rights bodies to more thoroughly 
and systematically document the violations outlined in the Committee's 
report.
    I will now list concrete steps to achieve the policy objective of 
improving the human rights of North Korean residents and refugees.

           1. Emphasize human rights in policy. President Bush and all 
        other government officials should take every opportunity 
        (publicly and privately) to express concern for the plight of 
        the North Korean people and U.S. commitment to assisting in the 
        restoration of their rights and wellbeing. During their most 
        recent meeting, President Roh indicated at one point that 
        without the help of the U.S. in 1950, he might be in a prison 
        camp [of Kim Jong Ii] today. President Bush should have pressed 
        President Roh on this point by way of emphasizing the need to 
        address the human rights crisis in North Korea.

           2. Pressure the North Korean regime to close down its brutal 
        and repressive prison camp system.

           3. Pressure the North Korean government to cease 
        criminalizing the act of leaving the country without permission 
        and severely punishing those who are forcibly repatriated.

           4. The protections offered by U.S. law and policy to refugee 
        populations in danger should be extended to North Korean 
        refugees in China.

           5. Urge the UN High Commissioner for Refugees to take 
        immediate action to press China to fulfill its obligations 
        under the 1951 Convention Relating to the Status of Refugees, 
        and end its practice of cooperating in the forced repatriation 
        of North Koreans.

           6. Press the UNHCR to invoke binding arbitration of the 1995 
        agreement it has with the Chinese government to secure its 
        unimpeded access to North Korean refugees.

           7. Encourage the Chinese government to allow the UNHCR to 
        operate under its full mandate according to the 1995 agreement. 
        As China enters prominence in the international arena, it must 
        take on the responsibilities commensurate with its status.

           8. Help create an interim resettlement area in third-party 
        countries such as Mongolia to alleviate China of the burden of 
        accommodating large numbers of refugees on its soil.

           9. Ensure that independent assistance organizations can 
        provide famine and medical relief to the people most in need 
        and can verify that this relief is reaching those whom it is 
        intended to help. It is especially important that the 
        distribution and monitoring of food aid be put in the hands of 
        humanitarian assistance organizations, and at a minimum be made 
        transparent.

          10. Find new ways to provide information to the people of 
        North Korea, thus ending their enforced isolation. Develop 
        multiple channels of exchange and contact. Increase radio 
        broadcasting like Radio Free Asia to North Korea.

          11. Develop and implement an international agreement modeled 
        on the Helsinki Final Act, which linked Western recognition of 
        the post-World War II borders of Central Europe to a 
        comprehensive set of human rights principles. While there is 
        less reason to believe that North Korea would honor such an 
        agreement, the need at this time is to start a process. A 
        Helsinki agreement for the Korean peninsula could offer a lever 
        with which to curb Pyongyang's worst abuses, open North Korea 
        to greater international scrutiny, and help break down the 
        isolation of the North Korean people.

          12. U.S. Members of Congress should strategize and coordinate 
        with counterparts in South Korea, Japan, and Europe on 
        improving legislation to help the North Korean people. Such an 
        initiative is currently being implemented. The next meeting of 
        the Inter-parliamentary working group on human rights in North 
        Korea is scheduled to convene here in this building on July 16 
        as part of a larger conference on human rights in North Korea.

          13. Pressure companies investing in (or planning to invest 
        in) North Korea to develop a code of conduct similar to the 
        Sullivan principles that were applied in South Africa to 
        protect workers and other citizens.

    These are all feasible first steps that could lay the foundation 
for more far-reaching changes in the future.

                            III. CONCLUSION

    There have been important changes in North Korea in the past five 
years. The crisis of the regime is deepening, as corruption becomes 
endemic and the regime begins to lose its grip on the monopoly of 
information. The flow of North Koreans across the border with China has 
begun to open up the country. Radios are being smuggled back in to 
North Korea in large numbers. These radios are very inexpensive to 
purchase in China because labor is so cheap and because these devices 
are radio-cassette players, and their producers want to dispose of them 
quickly as the consumer market switches to CDs. One defector estimates 
that up to half of the North Korean population has or has access to a 
radio that can receive AM/FM broadcasts from outside the country, and 
large numbers of people (including, military officers) are listening to 
Voice of America and Radio Free Asia broadcasts in Korean. One of the 
most important things that the United States can do is to increase 
radio broadcasting of news, information, and ideas aimed at the North 
Korean population. An important task now is to deluge people in society 
with information and raise their awareness.
    The United States should make human rights a major component of its 
relations with North Korea, equal with the demand that North Korea stop 
developing nuclear weapons. If the United States only (or mainly) 
focuses on the nuclear issue, it risks Kim Jong-il's using that issue 
to shore up support for his regime. He will have greater ability to 
foment nationalist sentiment, by positing the notion that if the United 
States has nuclear weapons, why shouldn't they? This may deflect 
attention away from the domestic failings of the regime and may 
actually strengthen Kim politically at a time when disenchantment with 
his regime is growing. If the United States challenges the North Korean 
regime on its human rights record, however--and in particular demands 
that it close down the prison camps--this could sour North Korean 
people against the regime, and could possibly soften hostile views 
toward the United States, because they know that the human rights 
situation in their country is abysmal.
    The issue of North Korean refugees has received and continues to 
receive increased attention, but now U.S. and international attention 
must also be focused on the North Korean gulag. One objective the 
Committee hopes to achieve with the publishing of its prison camps 
report is to create human rights awareness in the U.S. and in the 
international community by documenting what is happening in the 
concentration camps and showing photographs and/or other evidence. As 
an example of the growing need to address this issue, a new NGO devoted 
to the abolition of the prison camp system has been launched in Seoul, 
(NK Gulag) and will try to heighten awareness among South Koreans as 
well.
    Nowhere in the world today is the abuse of rights so brutal, so 
comprehensive and so institutionalized as it is in North Korea. With 
North Korea attracting attention for its nuclear program and its 
illicit-narcotics activities, now is the time to speak out about the 
horrible abuses being perpetrated against its own people. The North 
Korean people have been oppressed, frightened and enslaved for long 
enough.
    Thank you.

    Senator Brownback. Thank you very much. I am sorry the time 
is so short, but we are just under that constraint.
    Dr. Linton, thank you very much for joining us today.

 STATEMENT OF STEPHEN W. LINTON, PH.D., CHAIRMAN, EUGENE BELL 
                  FOUNDATION, CLARKSVILLE, MD

    Dr. Linton. Thank you for inviting me. Chairman Brownback, 
I really am pleased to be here, and I think we have someone we 
know in common. Sam Lee, who is the head of Eugene Bell's 
office in Washington, interned under you.
    Senator Brownback. Yes, he did.
    Dr. Linton. He speaks very highly of you.
    As an American, I believe that I have been given a rare, 
extended glimpse into North Korea that most foreigners have not 
been allowed to see. Before sharing some of my thoughts--and I 
will keep it as brief as possible--allow me to give a brief 
explanation for these unique circumstances.
    I grew up in a missionary family, third generation 
missionary family, in South Korea, graduated from a Korean 
university, and actually came down with tuberculosis when I was 
a grade school student while I was attending a local Korean 
school. As a result of this, I had to spend 9 months with my 
brother in confinement in 1956.
    I, unfortunately, came down with it again after a bout with 
typhoid fever in 1979, and during my period of recuperation was 
able to attend a table tennis federation meet in Pyongyang, 
which got me very excited. I changed course in my graduate 
studies and ended up doing a degree in education and 
ideological inculcation at Columbia University with a focus on 
North Korea, and as I finished my degree, I began consulting 
for people who were interested in Korea, including Dr. Billy 
Graham. I accompanied him on his two trips to North Korea, as 
well as acted as his interpreter in his meetings with Kim Il-
sung.
    I had to choose, though, between academia and humanitarian 
work, when in 1995 the North Koreans officially asked for aid. 
At the time I started what was almost a research project in 
trying to figure out how Korean Americans, particularly 
churches and social organizations, could send aid cheaply to 
North Korea without breaking U.S. laws, and in conjunction with 
that, founded the Eugene Bell Foundation.
    In 1997 we were asked officially by the North Korean 
Government to focus on tuberculosis, which is, as they called 
it, their No. 1, No. 2, and No. 3 most feared disease. While 
there are no statistics per se, if you go on South Korean 
statistics for the 1950s and early 1960s, you can pretty well 
assume that about 5 percent of the population have it. So it is 
really a very serious situation for them.
    They have encouraged this largely I think because I had 
been a TB patient but also because my parents have operated a 
TB sanitarium in South Korea for about 30 years.
    So from 1997 we switched over and have been raising money 
and implementing tuberculosis assistance work there ever since. 
I would have to say that as of last year, we were sending 
assistance packages--and we have a program that is pretty 
comprehensive--to about 60 of their 80 tuberculosis treatment 
facilities scattered all over the country. In conjunction with 
this, I was introduced once by a military person as the 
American, other than the pilots of an SR-71, who has visited 
North Korea the most frequently. I lost count after 50 times.
    Having said this, we have not worked with refugees for 
obvious reasons because many, many organizations are able to 
address their needs, but the Eugene Bell Foundation has a 
fairly unique niche in the country itself.
    As many have documented in detail, North Koreans 
experienced severe economic shock in the 1990s, and they blame 
it on natural disasters. By their own admission, their citizens 
were too used to relying on a dependable though modest 
government subsidy for food and shelter and whatnot, and were 
unprepared--in all too many cases, unable--to adjust to a new 
economic order where survival depended on individual 
initiative. As a result, untold numbers starved to death, and I 
really could not say how many. While traveling in the 
countryside in 1997, I witnessed hundreds of displaced people 
frantically in search of food. It was really one of the worst 
experiences I have ever had in my life.
    Today life continues to be difficult, but thankfully North 
Korea's economy has begun to improve. I briefly credit this to 
three things.
    One is clearly assistance from the outside, and I think the 
United States deserves credit for a lot of that. You can see 
just about everywhere bags of American aid and the use of those 
bags for hauling just about everything.
    The second has been barter trade with China. Even today you 
can see boxcars and flat cars full of scrap metal going to 
China. I am afraid that most of North Korea's forests have been 
cut down and sold to China as well. While these measures have 
managed to stem starvation, they have not brightened North 
Korea's long-term economic potential.
    But I would say that the greatest cause is the informal 
economy. North Koreans, despite obvious risks to their overall 
economic and political system, have permitted the growth of 
informal markets, barter, people selling what they grow in 
their private plots or what they grow on the hillsides, and 
those informal coping mechanisms have, in a sense, brought 
North Korea one or two steps back from the brink.
    Conspicuously absent from this, however, is what economists 
would call real systemic reform of the economy. And that was 
very odd to me because there has been clearly an allowance made 
for micro-economic changes in the society, which are arguably 
politically far more risky. Why then have they not instituted 
meaningful changes on the macro level? They have experimented 
with special economic zones and things like that.
    But to the best of my knowledge, the reason these changes 
have not taken place is because the North Korean leaders do not 
believe in a level playing field. For them, small countries are 
inherently at a disadvantage compared to large countries and, 
therefore, need to leverage their position or power or 
influence against large countries in order to gain benefits. So 
when you talk about opening the economy to international trade 
and competing on a level playing field in the international 
market, they simply do not believe it is possible or that kind 
of fair play exists at all.
    So this becomes a problem for us as we move humanitarian 
aid into North Korea. We are constantly having to deal with 
stop-gap measures and the informal economy, and therefore, we 
pay way too much for certain things and way too little for 
others. My concern is that even our efforts have not helped. 
They have helped the TB work, but they really have not helped 
grow North Korea's economy to a serious extent.
    So while I do not argue that international or multilateral 
approaches to the nuclear issue and WMD are not necessary, I 
really would like to see someone focus on making North 
Koreans--the sanctions issue--making it possible for North 
Koreans to sell legitimate products that they might make to 
legitimate markets, and in this way encouraging the kind of 
change on the macro level that we have already seen on the 
micro level. Because I am afraid that while coping mechanisms 
on the micro level may help people from starving to death, 
ultimately the kinds of changes that we would like to see in a 
whole plethora of issues will not take place until people in 
power are genuinely convinced that if they make something in 
their society, put it in a container, send it to the United 
States or wherever, that they can compete fairly and openly on 
the international market and raise money in a legitimate, 
transparent fashion.
    I will end here and thank you again for making this 
possible. It has been a lot of fun.
    [The prepared statement of Dr. Linton follows:]

 Prepared Statement of Stephen W. Linton, Ph.D., Chairman, Eugene Bell 
                               Foundation

    Mr. Chairman, members of the Subcommittee, I am pleased to appear 
before you today to offer some of my insights on life in North Korea.
    As an American, I believe that that I have been given a rare 
extended glimpse into North Korea that most foreigners are not allowed 
to see. Before I share some of my thoughts on this topic, allow me to 
give a brief explanation of these unique circumstances.

                               BACKGROUND

    I grew up in Korea, the son of a third generation Southern 
Presbyterian missionary. My family lived in the South Korean 
countryside during a period of great economic hardship. At that time 
the infection rate for tuberculosis was about 5% of the general 
population. While attending a local Korean grade school, I contracted 
this disease. As a result, I spent nine months confined to my bedroom 
with my two brothers in 1956.
    While recuperating from my second bout with tuberculosis in 1979, I 
first visited North Korea as an observer to an international table 
tennis meet. This visit encouraged me to focus my graduate research on 
North Korea. Upon completion of my degree at Columbia University, I 
taught Korean studies and worked as a consultant for a variety of North 
Korea-related projects, including an effort by the Reverend Billy 
Graham to develop relations with North Korea's leader, Kim II Sung.
    Eventually I had to make a choice between teaching and continuing 
North Korea work. When the North Korean government officially asked for 
assistance in 1995, I founded the Eugene Bell Foundation and began to 
coordinate shipments of donated food. In 1997, North Korea's Ministry 
of Public Health formally asked me to focus our organization's work on 
tuberculosis. Vice Minister Choe Chang Sik's knowledge of my own 
experience as a tuberculosis patient, as well as the fact that my 
parents had founded and directed a tuberculosis clinic and sanitarium 
in South Korea for thirty years, no doubt encourage him to make this 
request.
    In response to this official request, since 1997 the Eugene Bell 
Foundation has focused on medical assistance to North Korea and now 
assists approximately 60 out of 80 North Korean hospitals and 
tuberculosis treatment facilities. Over the years, I have made close to 
60 visits to North Korea and have traveled to every province in the 
country to assess needs and to monitor humanitarian assistance. The 
Eugene Bell Foundation has grown to be one of North Korea's primary 
sources for outside medical assistance, particularly for people who 
live in rural areas.

                  TRAGEDY FOLLOWED BY SLOW IMPROVEMENT

    As many have documented in detail, North Koreans experienced a 
severe economic shock in the mid 1990's, a drastic economic downturn 
they blame on a series of natural disasters. By their own admission, 
North Korea's citizens, used to relying on dependable though modest 
government subsidies, were unprepared (and in all too many cases, 
unable) to adjust to a new economic order where survival depended on 
individual initiative. As a result, untold numbers starved to death. 
While traveling in the countryside in the spring of 1997 I witnessed 
hundreds of internally displaced people who were wandering the city 
streets, highways, and railroad tracks in a desperate search for food. 
Many of them drifted northward to the Chinese border as if following 
the shipments of corn and other foodstuffs that were trickling over the 
border from the PRC. The plight of these people was indescribable, a 
tragedy that I will never be able to forget.
    Today, the life of the ordinary North Korean continues to be 
difficult almost beyond description. For South Koreans who are old 
enough to remember the 40's and 50's, the harsh economic realities of 
North Korea today would look familiar. Especially since the steep 
economic downturn of the 1990's, income from salaries and wages has not 
been enough to guarantee survival. As a result, North Koreans have had 
to turn to informal coping mechanisms. Even individuals who work in 
government ministries rely on outside sources of income to acquire the 
goods and services they need for their families.
    Thankfully, the North Korean economy has slowly improved over the 
past few years. Although outsiders would have a hard time believing 
that what the average person eats could be an improvement, when 
compared to 1996 and 1997, the lives of its ordinary citizens has 
improved slightly. This is even in light of the fact that North Koreans 
still struggle with severe shortages of electricity, fuel for heating, 
and practically everything else.
    The credit for a modest improvement in the standard of living in 
North Korea is threefold. Indubitably, foreign food assistance, 
particularly from the U.S., deserves a major share of tribute for 
saving and improving the life of the average North Korean. Despite 
evidence of diversion, the continual stream of aid from the outside has 
helped immeasurably. Evidence of the volume of foreign food assistance 
is visible not only in the fuller faces of the ordinary North Korean 
citizen but also in the ubiquitous food sacks stamped with slogans like 
``Donated by the USA'' one can see all over North Korea.
    Foreign economic assistance and barter trade has also played a 
major--if unmeasured role in the modest gains in the quality of life in 
North Korea. Of particular significance has been the agricultural 
assistance from the Republic of Korea (South Korea) that has made it 
possible for the North Korean peasant to grow more food. North Koreans 
have also shipped countless rail cars loaded with timber and scrap 
metal to China where they have bartered it for food and other 
necessities. Whole factories have been scrapped and shipped north, 
along with much of what remained of North Korea's forests. But although 
these measures may have stemmed some starvation, they have scarcely 
brightened North Korea's long-term economic potential.
    The primary credit for North Korea's modest economic gains has been 
the informal economy. These so-called ``informal coping mechanisms,'' 
including produce from private plots, farmer's markets, etc., adopted 
by North Korea's tough and resilient population, have halted North 
Korea's precipitous economic slide toward oblivion. Although the 
economic situation is still precarious, improvement in the over-all 
food supply has meant that some officials are beginning to refer to the 
``Arduous March'' (North Korea's official euphemism for the famine) in 
the past tense.

                      BARRIERS TO ECONOMIC REFORM

    Conspicuously missing from this picture of a slow improvement in 
quality of life is the structural reform needed to promote legitimate 
international trade. The absence of significant economic reform, 
moreover, threatens the modest gains made through aid and the informal 
economy, efforts that have only managed to pull North Korea's 
population back a few steps from disaster.
    North Korea's attitude toward economic reforms is one of the most 
controversial topics among students of North Korea today. While some 
would argue that attempts to set up special economic zones and 
adjustments in currency represent a genuine willingness to embrace 
economic reform, these policies aimed at promoting economic growth have 
yet to make a meaningful impact on everyday life.
    This fact is driven home time and time again in our humanitarian 
work in North Korea. Not only do we struggle with chronic shortages of 
electricity, bad roads and poor communications, but one particular 
problem arises time and time again to challenge our efforts to deliver 
goods and services to North Koreans suffering from tuberculosis and 
other life-threatening diseases. This is none other than the inability 
of North Korea to move beyond an ``informal economy'' on the macro 
level. As a result, we pay too much for some things (like 
transportation) and not enough for others (like manpower). And what's 
worse, like other humanitarian aid efforts, our assistance does not 
contribute to North Korea's capacity to engage in legitimate economic 
activity.
    During the 1960's and early 70's, North Korea enjoyed a period of 
economic growth and stability that old timers in the North still 
wistfully look back to. During that time, the average citizen lived 
without fear of famine or worry about how to acquire the necessities of 
life. The short decade made such a strong impression on the people 
living at the time, that many who remember it are reluctant to abandon 
the economic system that delivered North Korea's ``Golden Age.'' The 
chief characteristic of North Korea's Golden Age was a public 
distribution system that provided citizens with a food and clothing 
ration, housing, education, and medical care free of charge. Although 
this state-supported standard of living would hardly satisfy South 
Koreans today, it meant that money was not needed for survival. As the 
state's public subsidy system faltered, North Korea's population has 
had to ``retreat'' toward a money-based economy where prices are 
determined by market principles rather than official fiat. This retreat 
turned into a rout in 1995.
    Since the Arduous March, the informal economy has provided the bulk 
of goods and services to the average citizen. As more goods have become 
available, what began as a barter economy has become increasingly 
monetized, and prices have become a little more stable. Nevertheless, 
this economic reform on the micro level has yet to be embraced by the 
major institutions in North Korean society. As a result, while the 
private sector has made significant steps toward evolution toward a 
market economy, North Korea's official sector still lacks the mentality 
or mechanisms needed to normalize the exchange of goods and services or 
to permit competitive pricing, changes essential if North Korea is to 
profit from international trade. Instead, government ministries and 
agencies continue to rely on a plethora of informal mechanisms to 
profit from moneymaking ventures under their control. And while these 
methods are often ingenious, they do not grow the economy as they 
should.
    One creative example of the workings of North Korea's informal 
economy at the international level is Hyundai's Diamond Mountain 
project. Instead of sharing risk with South Korean investors and 
accepting an agreed portion of the profits, related North Korean 
ministries collect ``rent'' for the use of this scenic area, regardless 
of whether the overall effort turns a profit or not. The result has 
been a massive ROK government funded subsidy to North Korea disguised 
as a tourist industry. As a result, North Korea's own tourist industry 
has learned very little from this venture about how to profit from 
international tourism.
    What has made North Korea's officials so reluctant to promote the 
economic changes needed for competitive international trade? It goes 
without saying that North Korea's leadership is fearful of what might 
happen if its ordinary citizens are permitted to make the contacts with 
the outside needed to produce and ship legitimate merchandise. Clearly 
this concern is behind the attempts to set up ``special economic 
zones'' that can be quarantined from the general population. This kind 
of thinking is also behind the restrictions placed on humanitarian aid 
monitoring today. Thanks to humanitarian aid programs, North Koreans 
are far more relaxed in their dealings with foreigners today than they 
were only several years ago. Clearly, fear of people-to-people contacts 
is not the primary reason North Korea has not wholeheartedly embraced 
economic reforms.

                        FAIR PLAY AND SANCTIONS

    Faith in fairness is essential to justify the risks of opening a 
closed economy to international trade, and North Korea's leadership has 
never believed in a world governed by fair play. Instead, they believe 
that nature as well as history has created a world of national 
``haves'' and ``have nots.'' In this view, because the world's natural 
resources are unequally distributed in favor of larger nations, smaller 
nations have to rely on diplomacy and influence (pressure) to acquire 
what they need. Not surprisingly, all their energies are exerted in 
acquiring the leverage needed to force foreign powers to take them 
seriously.
    The primary ``products'' North Korea has to ``sell'' according to 
this perspective, are not the material goods that its people might 
produce, but instead the intangible ``benefits'' outsiders could gain 
through engagement itself. This was the reasoning behind North Korea's 
support for the Light Water Reactor Project. If it ultimately 
succeeded, North Korea hoped to gain not only electricity, but more 
importantly a much desired relationship with the United States. Whether 
or not the venture would ever provide competitive electrical power had 
never entered into the equation at all.
    Sadly, North Korea's perspective and suspicions regarding 
international affairs seem to be confirmed by the strong support for 
U.S.-led sanctions. In the North Korean way of thinking, sanctions 
``prove'' that the economic playing field will never be level enough to 
permit their products to compete in the international arena. When seen 
from this perspective, North Korea's international and domestic 
policies are relatively easy to understand.
    I do not mean to suggest, of course, that removing sanctions would 
result in an immediate embrace of economic reforms, much less in total 
transparency in North Korea's WMD programs. Still, it is unrealistic to 
expect implementation of significant structural reforms until North 
Korea's leaders are convinced that their products will be allowed to 
compete in international markets. Until that day, North Koreans will 
continue to blame others for their hardships rather than wholeheartedly 
embracing reform.
    Not surprisingly, North Korea's ambivalence toward economic reform 
impacts the ordinary citizen most. While the informal economy may help 
stave off starvation, it can never provide the structure or legal 
protections needed to promote private sector business and industry; 
much less develop the partnerships with outsiders essential to promote 
trade. Until the day comes when its leaders are willing to risk real 
economic reforms, North Korean citizens will have to rely on the 
informal economy to get by from day to day. Clearly this is no way to 
build a prosperous future, but it may be the only way they can survive.

                [Press Release--Thursday, May 29, 2003]

 EUGENE BELL FOUNDATION DELEGATION RETURNS FROM 4-WEEK NORTH KOREA AID 
                             DELIVERY VISIT

    Washington, DC--The Eugene Bell Foundation (EBF), a U.S.-based 
nonprofit organization that has provided medical aid to North Korea 
since 1995, recently completed a North Korea trip to the South Pyongan 
region.
    ``Despite ongoing tensions between the United States and North 
Korea, Eugene Bell projects have been warmly received and continue to 
make positive progress. This is proof that humanitarian aid can remain 
on a separate track from political considerations and may even work to 
reduce such instability,'' said Dr. Stephen W. Linton, EBF Chairman and 
Founder.
    From April 19th to May 15th, the current trip included visits to 20 
medical facilities and a children's hospital that the Foundation 
supports through its Partner Package Program, a system that strives to 
link donors with specific medical care institutions in North Korea. 
Medical aid is donated directly on-site to recipients in the names of 
their beneficiaries.
    The team headed by Dr. Linton arrived to the country just before 
the border was officially closed by North Korean authorities due to 
SARS concerns. Once the group was determined to be ``SARS-free,'' the 
Eugene Bell delegation was not hindered in traveling around the 
country. A majority of the facilities the Bell Foundation assists are 
located in the countryside.
    ``Over the past ten years, our humanitarian efforts have 
increasingly been met with more cooperation and enthusiasm. In 
accordance with rising levels of trust, the transparency of our 
programs has also drastically increased. Many people don't realize that 
this sort of transparency is even possible in North Korea, particularly 
by an American organization. While we have also had our share of 
disappointments, the key was sustained interest and continued 
engagement,'' stated Dr. Stephen Linton.
    The Eugene Bell Foundation primarily focuses on the treatment and 
prevention of tuberculosis, North Korea's most serious public health 
concern. Since 1995, EBF currently supports 60 out of North Korea's 80 
tuberculosis care facilities. Bell Foundation delegations regularly 
make site visits to institutions that aid is distributed to.

    Senator Brownback. Thank you, Dr. Linton. Thank you for 
your service in helping North Korean people.
    Dr. Noland.

 STATEMENT OF DR. MARCUS NOLAND, SENIOR FELLOW, INSTITUTE FOR 
            INTERNATIONAL ECONOMICS, WASHINGTON, DC

    Dr. Noland. Thank you, Senator Brownback. I am honored to 
be invited to address the subcommittee, and in my oral remarks 
I will summarize and extend my written testimony that has been 
submitted.
    North Korea has been in economic decline for more than a 
decade. In the 1990s a famine killed perhaps 600,000 to a 
million people, which is to say I believe that the figure cited 
earlier by Mr. Natsios of 2.5 million is probably an 
exaggeration. In the end, it probably does not really matter 
whether it is 3 percent of the population or 5 percent or 10 
percent. It was a bad experience. And paradoxically, while I 
think that Mr. Natsios was probably unduly negative in his 
description of the past, I think his description of the present 
was probably a bit optimistic.
    Given the expenditure patterns of the regime--that is to 
say, its extreme preference for guns over butter--the economy 
does not produce enough output to sustain the population 
biologically, and the remaining population is increasingly aid-
dependent and today is on the precipice of another famine.
    Economic policy changes were undertaken in July 2002, and I 
would agree with Steve Linton, that I do not believe that these 
were really real reforms. I think they were attempts to revive 
a moribund system and had four components. One was micro-
economic reforms or an attempt to marketize the economy to a 
certain extent. Second was macro-economic policy changes which 
had the effect of generating huge inflation. Third was the 
pursuit of special economic zones, and fourth was seeking aid 
or passing the hat.
    Subsequent moves undertaken since July of last year have 
included a decree that all dollars in circulation have to be 
turned in for euros, which the central bank actually does not 
have, and the announcement in March of this year of what is 
called a bond initiative but, in fact, it is more like a 
lottery ticket initiative.
    To understand the food availability situation, the 
unleashing of inflation is key. What the North Koreans did last 
year was raise the prices of grain by over 40,000 percent in 
terms of both procurement prices at the farm gate, in terms of 
the retail distribution price in the public distribution 
system. The problem is they had no mechanism for bringing these 
state prices in line with market prices, and because of the 
huge inflation that has occurred, market prices have continued 
to rise. And as a consequence, farmers continue to divert 
supply not into the PDS but rather into the market or they use 
the grain to produce liquor which they sell. So the reforms 
have not had the effect of bringing more food into the state-
run system as anticipated. That is on the supply side.
    On the demand side, what has happened is that there has 
been increasing social differentiation within North Korea, and 
with people increasingly reliant on the market to access food, 
most urban households are food-insecure.
    In Mr. Natsios' written testimony, he referred to a 
nutrition study paid for by the World Food Program, UNICEF, and 
the EU, and argued that this had shown a big improvement in 
nutritional status of North Korea since 1998. I believe that 
this study is simply not credible. Let me quickly explain why.
    The first study these organizations did in 1998 found that 
62 percent of North Korean children were stunted, that is, 
height for age; 62 percent were underweight, that is to say, 
weight for age; and 16 percent were wasted, that is a measure 
of weight based on height. The latter would make the situation 
in North Korea in 1998 50 percent worse than the 
contemporaneous situation in Sierra Leone which, as you know, 
had collapsed into virtual anarchy.
    The 2002 study that Mr. Natsios referred to showed an 
incredible improvement of underweight infants, from 62 percent 
to 21 percent; and the stunted ones, from 62 percent to 42 
percent. Low birth weights were 6.7 percent, which is actually 
better than the United States level of 7.6 percent.
    How do we explain this stunning improvement in 4 years?
    Well, it could be just miraculous. That is possible.
    It could be the fact that the North Koreans do not allow 
foreign aid agencies to use Korean speakers, and traditionally 
Koreans date age from conception not from birth. You are 
essentially 1 year old when you are born. My supposition is in 
1998 they sent people into the countryside who systematically 
misinterpreted people's responses about the age of these 
children. They systematically overestimated their ages. That is 
why you get these incredible numbers of stunting and so on, and 
that is why the age-related measures improved so dramatically 
in 4 years. It is not that the situation actually improved. It 
is just a statistical artifact.
    In any event, none of these studies covered two of the 
provinces of North Korea, so they not have a representative 
sample.
    So to recap, basically the economic program is failing and 
I would argue the country is on the verge of lurching back into 
famine. It did not have to be this way. Morocco is a country 
which is about the same size, and in certain respects, 
economically similar to North Korea. It also experienced a big 
fall in domestic output of grain in the late 1990s, but Morocco 
did not experience a famine. The reason is they exported, 
earning foreign exchange, and they borrowed money on 
international markets, purchasing grain on a commercial basis 
from countries like the United States, Argentina, and Australia 
which are more capable of producing it efficiently.
    Ultimately the only sustainable solution to the food 
situation in North Korea is an opening up of the North Korean 
economy, the exportation of industrial products and the 
purchase of bulk grains on the international markets. Domestic 
production and aid are not sustainable solutions to this 
problem.
    Thank you very much.
    [The prepared statement of Dr. Noland follows:]

 Prepared Statement of Marcus Noland \1\, Senior Fellow, Institute for 
                        International Economics
---------------------------------------------------------------------------

    \1\ The views expressed in this statement are those of the author 
and do not necessarily reflect the views of individual members of the 
Institute's Board of Directors or Advisory Committee.
---------------------------------------------------------------------------
    The Democratic People's Republic of Korea (DPRK) or North Korea has 
been experiencing an on-going food crisis for more than a decade. A 
famine in the late 1990s resulted in the deaths of perhaps 600,000 to 1 
million people out of a pre-famine population of roughly 21 million. 
Since then, a combination of humanitarian food aid and development 
assistance has ameliorated the situation somewhat, but according to the 
World Food Programme (WFP) and other observers, the country is once 
again on the precipice of another famine.
    Given the expenditure preferences of the regime, the North Korean 
economy does not produce enough output to sustain the population 
biologically, and population maintenance is increasingly aid-dependent. 
Yet the October 2002 revelation of a nuclear weapons program based on 
highly enriched uranium (in addition to a plutonium-based program 
acknowledged a decade earlier), undertaken in contravention of several 
international agreements, and North Korea's subsequent withdrawal from 
the Nuclear Nonproliferation Treaty have put continued international 
assistance in doubt.
    The situation is further complicated by internal economic policy 
changes initiated in mid-2002. In this regard, this testimony will make 
three basic points:

  <bullet> Food availability is precarious, and it would not be 
        surprising to observe increases in mortality.

  <bullet> Industrial revitalization is the only sustainable solution 
        to the food crisis.

  <bullet> North Korea is likely to continue a policy of muddling 
        through, implying a continuation of the food emergency.

                          RECENT DEVELOPMENTS

    In July 2002, the government of North Korea announced changes in 
economic policy that could be regarded as having four components: 
marketization, inflation, special economic zones, and aid-seeking.
Marketization
    With respect to food, the government has implemented a policy of 
increasing the procurement prices of grains (to increase the volume of 
food entering the public distribution system [PDS]) along with 
dramatically increasing PDS prices to consumers, with the retail prices 
of grains rising from 40,000 to 60,000 percent in the span of six 
months during the first half of 2002. On the supply side, the increase 
in agricultural procurement prices was presumably undertaken to 
increase the actual amount of food entering the PDS. Yet North Korean 
agriculture is highly input-intensive (i.e., it makes extensive use of 
chemical fertilizers and insecticides, electrically powered irrigation 
etc.), and the ultimate impact of the reforms on agricultural yields 
could be strongly influenced by what happens in the industrial sector. 
Moreover, while PDS prices have remained largely unchanged since 1 
July, 2002, market prices have increased significantly, and it is 
unclear if the policy is having its intended effect or if farmers are 
diverting output to the market.
    On the demand side, the government appears to be trying to ensure 
survival rations through the PDS--the rationing system through which 
most people historically obtained food--with food purchased in the 
market supplementing the PDS rations for those who can afford it. Some 
have questioned the extent to which this is a real policy change and 
how much this is simply a ratification of system-fraying that had 
already occurred--there is considerable evidence that most food, for 
example, was already being distributed through markets, not the PDS. 
But this may indeed be precisely the motivation behind the increases in 
producer prices--with little supply entering the PDS, people 
increasingly obtained their food from non-state sources, and by 
bringing more supply into state-controlled channels, the government can 
try to reduce the extent to which food is allocated purely on the basis 
of purchasing power. Indeed, given the growing inequality in the 
distribution of income and wealth within North Korea, which could be 
expected to accentuate differences in access to food and the already 
highly stressed nature of the North Korean society, it would not be 
surprising to observe increases in mortality rates. The state may also 
be motivated by broader anti-market ideological considerations as 
discussed below. Yet another motivation may be to reduce the fiscal 
strain imposed by the implicit subsidy provided to urban consumers.
    In the industrial sector, the policy changes could be interpreted 
as an attempt to implement a Chinese-style dual-price strategy. In 
essence, the Chinese instructed their state-owned enterprises to 
continue to fulfill the plan, but once planned production obligations 
were fulfilled, the enterprises were free to hire factors and produce 
products for sale on the open market. In other words, the plan was 
essentially frozen in time, and marginal growth occurred according to 
market dictates. Enterprises have been instructed that they are 
responsible for covering their own costs--that is, no more state 
subsidies. Yet it is unclear to what extent managers have been given 
the power to hire, fire, and promote workers, or to what extent 
remuneration will be determined by the market. Moreover, there has been 
no mention of the military's privileged position within the economy, 
and domestic propaganda continues to emphasize a ``military-first'' 
political path.
    The state has administratively raised wage levels, with certain 
favored groups such as military personnel, party officials, scientists, 
and coal miners receiving supernormal increases. (For example, it has 
been reported that the wage increases for military personnel and miners 
have been on the order of 1,500 percent, that for agricultural workers 
may be on the order of 900 percent, but the increases for office 
workers and less essential employees are less.) This alteration of real 
wages across occupational groups could be interpreted as an attempt to 
enhance the role of material incentives in labor allocation.
    The state continues to maintain an administered price structure, 
though by fiat, the state prices are being brought in line with prices 
observed in the markets. This is problematic (as it has proven in other 
transitional economies): the state has told the enterprises that they 
must cover costs, yet it continues to administer prices, and in the 
absence of any formal bankruptcy or other ``exit'' mechanism, there is 
no prescribed method for enterprises that cannot cover costs to cease 
operations, nor, in the absence of a social safety net, how workers 
from closed enterprises would survive. What is likely to occur is the 
maintenance of operations by these enterprises supported by implicit 
subsidies, either through national or local government budgets or 
through recourse to a reconstructed banking system. Indeed, the North 
Koreans have sent officials to China to study the Chinese banking 
system, which although may well have virtues, is also the primary 
mechanism through which money-losing state-owned firms are kept alive.
    The consensus among most outside observers is that, at this 
writing, marketization has not delivered as hoped. The behavior of 
enterprise managers appears to be similar to that observed prior to the 
policy changes. The jury is still out on the impact on the agricultural 
system, since the impact of changed incentives would not be readily 
apparent until the 2003 spring planting decisions.

Inflation
    At the same time the government announced the marketization 
initiatives, it also announced tremendous administered increases in 
wages and prices. To get a grasp on the magnitude of these price 
changes, consider this: when China raised the price of grains at the 
start of its reforms in November 1979, the increase was on the order of 
25 percent. In comparison, North Korea has raised the prices of corn 
and rice by more than 40,000 percent. In the absence of huge supply 
responses, the result will be an enormous jump in the price level and 
possibly even hyperinflation. Access to foreign currency may act as 
insurance against inflation, and in fact, the black market value of the 
North Korean won has dropped steadily since the reforms were announced. 
At the same time, the government apparently continues to insist that 
foreign-invested enterprises pay wages in hard currencies (at wage 
rates that exceed those of China and Vietnam). This curious policy has 
the effect of blunting the competitiveness-boosting impact of the 
devaluation by aborting the adjustment of relative costs.
    Moreover, when China began its reforms in 1979, more than 70 
percent of the population was in the agricultural sector. (The same 
held true for Vietnam when it began reforming the following decade.) In 
contrast, North Korea has perhaps half that share employed in 
agriculture. This has two profound implications: first, the population 
share, which is directly benefiting from the increase in producer 
prices for agricultural goods, is roughly half as big as in China and 
Vietnam. This means that reform in North Korea is more likely to create 
losers and with them the possibility of unrest. Second, the relatively 
smaller size of the agricultural sector suggests that the positive 
supply response will not be as great in the North Korean case as 
compared to China or Vietnam either. Again, this increases the 
likelihood of reform, creating losers and unrest.
    Those with access to foreign exchange, such as senior party 
officials, will be relatively insulated from this phenomenon. 
Agricultural workers may benefit from ``automatic'' pay increases as 
the price of grain rises, but salaried workers without access to 
foreign exchange will fall behind. In other words, the process of 
marketization and inflation will contribute to the exacerbation of 
existing social differences in North Korea. The implications for 
``losers'' could be quite severe. According to a WFP survey, most urban 
households are food insecure, spending more than 80 percent of their 
incomes on food.
    Make no mistake about it: North Korea has moved from the realm of 
elite to the realm of mass politics. Unlike the diplomatic initiatives 
of the past several years, these developments will affect the entire 
population, not just a few elites. And while there is a consensus that 
marketization is a necessary component of economic revitalization, the 
inflationary part of the package would appear to be both unnecessary 
and destructive. (If one wanted to increase the relative wages of coal 
miners by 40 percent, one could simply give them a 40 percent raise--
one does not need to increase the overall price level by a factor of 
10, and the nominal wages of coal miners by a factor of 14 to effect 
the same real wage increase.)
    So why do it? There are several possible explanations, but in the 
interests of brevity I will focus on one: namely that the inflation 
policy is intentional and is a product of Kim Jong-il's reputed 
antipathy toward private economic activity beyond state control. One 
effect of inflation is to reduce the value of existing won holdings. 
(For example, if the price level increases by a factor of 10, the real 
value of existing won holdings is literally decimated.) Historically, 
state-administered inflations and their cousins, currency reforms, have 
been used by socialist governments to wipe out currency ``overhangs'' 
(excess monetary stock claims on goods in circulation), more 
specifically to target black marketers and others engaged in economic 
activity outside state strictures, who hold large stocks of the 
domestic currency. (In a currency reform, residents are literally 
required to turn in their existing holdings--subject to a ceiling, of 
course--for newly issued notes.) In July it was announced that the blue 
(``foreigner's'') won foreign exchange certificates would be replaced 
by the normal brown (``people's'') won, though it is unclear if these 
are convertible into foreign currency. The other shoe dropped in 
December 2002 when the authorities announced that the circulation of US 
dollars was prohibited and that all residents, foreign and domestic 
alike, would have to turn in their dollars to be exchanged for euros 
which the central bank did not have. In the case of North Korea, the 
episode that is now unfolding will be the fourth such one in the 
country's five-decade history.
    In yet another wheeze to extract resources from the population, in 
March 2003 the government announced the issuance of ``People's Life 
Bonds,'' which despite their name would seem to more closely resemble 
lottery tickets than bonds as conventionally understood. These 
instruments have a 10-year maturity, with principal repaid in annual 
installments beginning in year five (there does not appear to be any 
provision for interest payments and no money for such payments has been 
budgeted). For the first two years of the program, there would be semi-
annual drawings (annually thereafter) with winners to receive their 
principal plus prizes. No information has been provided on the expected 
odds or prize values other than that the drawings are to be based on an 
``open and objective'' principle. The government's announcement states, 
without irony, that ``the bonds are backed by the full faith and credit 
of the DPRK government.'' Committees have been established in every 
province, city, county, institute, factory, village, and town to 
promote the scheme--citizens purchasing these ``bonds'' will be 
performing a ``patriotic deed.'' Both the characteristics of the 
instrument and the mass campaign to sell it suggest that politics, not 
personal finance, will be its main attraction.
    The hypothesis has the strength of linking what appears to be a 
gratuitous economic policy to politics--Kim Jong-il not only rewards 
favored constituencies by providing them with real income increases and 
by going the inflation/currency reform route but he also punishes his 
enemies. This line of reasoning is not purely speculative: it has been 
reported that one of the motivations behind unifying prices in the PDS 
and farmers' markets has been to reduce the need of consumers to visit 
farmers' markets and to ``assist in the prevention of illegal sales 
activities'' that took place when the price in the farmers' market was 
much higher than the state price. A number of unconfirmed reports 
indicate that the government has placed a price ceiling on staple goods 
in the farmers' markets as an anti-inflationary device. The increase in 
the procurement price for grain has reportedly been motivated, at least 
in part, to counter the supply response of the farmers, who were 
diverting acreage away from grain to tobacco and using grain to produce 
liquor for sale.
    The problem with this explanation is that having gone through this 
experience several times in the past, North Korean traders are not 
gullible: they quickly get out of won in favor of dollars, yen, and 
yuan, and the black market value of the won has declined steadily since 
the policy changes were announced. (Indeed, even North Koreans working 
on cooperative farms reportedly prefer trinkets as a store of value to 
the local currency.) As a consequence, these blows, aimed at traders, 
may fall more squarely on the North Korean masses, especially those in 
regions and occupations in which opportunities to obtain foreign 
currencies are limited.

Special Economic Zones
    The third component of the North Korean economic policy change is 
the formation of various sorts of special economic zones. The first 
such zone was established in the Rajin-Sonbong region in the extreme 
northeast of the country in 1991. It has proved to be a failure for a 
variety of reasons including its geographic isolation, poor 
infrastructure, onerous rules, and interference in enterprise 
management by party officials. The one major investment has been the 
establishment of a combination hotel/casino/bank. Given the obvious 
scope for illicit activity associated with such a horizontally 
integrated endeavor, the result has been less Hong Kong than Macau 
North.
    In September 2002 the North Korean government announced the 
establishment of a special administrative region (SAR) at Sinuiju. In 
certain respects the location of the new zone was not surprising: the 
North Koreans had been talking about doing something in the Sinuiju 
area since 1998. Yet in other respects the announcement was 
extraordinary. The North Koreans announced that the zone would exist 
completely outside North Korea's usual legal structures; that it would 
have its own flag and issue its own passports; and that land could be 
leased for fifty years. To top it off, the SAR would not be run by a 
North Korean but by a Chinese-born entrepreneur with Dutch citizenship, 
named Yang Bin, who was promptly arrested by Chinese authorities on tax 
evasion charges.
    Ultimately, the planned industrial park at Kaesong, oriented toward 
South Korea, may have a bigger impact on the economy than either the 
Rajin-Sonbong or Sinuiju zones.

Aid-seeking
    The fourth component of the economic plan consisted of passing the 
hat. In September 2002, during the first-ever meeting between the heads 
of government of Japan and North Korea, Chairman Kim managed to extract 
from Prime Minister Koizumi a commitment to provide a large financial 
transfer to North Korea as part of the diplomatic normalization process 
to settle post-colonial claims, despite the shaky state of Japanese 
public finances. However, Kim's bald admission that North Korean agents 
had indeed kidnapped 12 Japanese citizens and that most of the 
abductees were dead set off a political firestorm in Japan. This 
revelation, together with the April 2003 admission that North Korea 
possesses nuclear weapons in contravention to multiple international 
agreements, has effectively killed the diplomatic rapprochement and 
with it the prospects of a large capital infusion from Japan, as well 
as already dim prospects of admission to international financial 
institutions such as the World Bank and Asian Development Bank.

                              CONCLUSIONS

    North Korea is into its second decade of food crisis. It 
experienced a famine in the 1990s that killed perhaps 3 to 5 percent of 
the pre-famine population. Yet remarkably little has changed since 
then; grain production has not recovered; and inexpertly enacted policy 
changes, a deteriorating diplomatic environment, donor fatigue, and an 
utterly ruthless government have brought the country once again to the 
precipice of famine.
    It did not have to be this way. Morocco, for example, a country of 
similar size and in certain respects with similar economic 
characteristics as the DPRK, suffered a similar fall in domestic output 
in the late 1990s, but a combination of increased exports and increased 
foreign borrowing allowed it to cover its food deficit through imports. 
Times were hard, but Morocco did not experience famine.
    Unlike other communist countries that have experienced famine, the 
case of North Korea represents less the introduction of misguided 
policies than the cumulative effect of two generations of economic 
mismanagement and social engineering. As a consequence, the policies 
are so imbedded in the social and political fabric of the country that 
they may well prove more difficult to reverse than has been the case 
elsewhere. The country could improve food availability by freeing up 
resources currently devoted to the military, but as long as the country 
pursues ``military-first'' politics, this is unlikely.
    Aid is not a viable long-term solution to the North Korean food 
crisis--the food gap is too large, and the political sustainability of 
aid too precarious. And while incentive reforms could contribute to 
productivity increases in agriculture, given the economic fundamentals 
of the DPRK--a high ratio of population to arable land, relatively high 
northerly latitude, and short growing season--it is doubtful whether a 
food security strategy based on domestic agricultural revitalization is 
advisable either. Only trade-opening strategies in the industrial 
sector and systemic reforms are likely to meet human needs and obviate 
the need for concessional assistance.\1\ The ultimate resolution to 
North Korea's food problem requires the revitalization of its 
industrial economy. To achieve food security, North Korea should open 
up externally; export manufactures, mining products, and some niche 
agricultural, forest, and fisheries products; and import bulk grains--
like its neighbors South Korea, China, and Japan do.
---------------------------------------------------------------------------
    \1\ For substantiation, see the simulations reported by Marcus 
Noland, Sherman Robinson, and Tao Wang, ``Famine in North Korea: Causes 
and Cures,'' Economic Development and Cultural Change 49, no. 4 (2001).
---------------------------------------------------------------------------
    Such a prospective development, in turn, is hampered by both 
domestic and external impediments. It is not at all clear that the 
current leadership is willing to countenance the erosion of state 
control that would accompany the degree of marketization necessary to 
revitalize the economy. The opposite would seem more plausible, namely, 
that Kim Jong-il has reluctantly concluded that the old methods are 
inadequate to revive the economy and out of political necessity is 
embracing marketization, inflation, and the former colonial master in a 
desperate bid to revitalize--though not fundamentally change--a 
moribund system. If this interpretation is correct, then we should 
expect hesitancy in the implementation of reforms and a strong reliance 
on the international social safety net supplied by the rest of the 
world. In this respect the outcome of the diplomatic maneuvering over 
the North Korean nuclear weapons program is of critical importance.
    Even if a serious reform program were attempted, it is by no means 
preordained that such a program would be successful. The three robust 
predictors of success in reforming centrally planned economies are the 
degree of macroeconomic stability at the time that reform is initiated; 
the legacy of a functional pre-socialist commercial legal system; and 
the size of the agricultural sector.\2\ North Korea is already 
experiencing significant macroeconomic instability and in terms of the 
sectoral composition of output and employment, the North Korean economy 
more closely resembles Romania and parts of the former Soviet Union 
than it does the agriculture-led Asian reformers, China and Vietnam.\3\ 
Finally, the divided nature of the Korean peninsula and dynastic 
aspects of the North Korean regime present real ideological and 
political problems for would-be reformers in the North, namely how to 
re-interpret the juche ideology of the virtually deified founding 
leader Kim Il-sung as market-oriented globalization (especially when 
most of the increased economic interdependence would be with rival 
South Korea and former colonial master Japan), and indeed, how to 
preserve the whole raison d'etre of the regime as it begins to look 
increasingly like a third-rate South Korea.
---------------------------------------------------------------------------
    \2\ See Anders Aslund, Peter Boone, and Simon Johnson. ``How To 
Stabilize: Lessons from Post-Communist Countries,'' Brookings Papers on 
Economic Activity 1: 217-313 (1996).
    \3\ See Marcus Noland, Avoiding the Apocalypse: The Future of the 
Two Koreas, Washington, Institute for International Economics, (2000).
---------------------------------------------------------------------------
    Even if the North were able to successfully navigate these shoals 
domestically, it is hard to see the initiative coming to fruition as 
long as the country remains, in essence, a pariah state, brandishing 
its nuclear weapons and missiles, subject to continual diplomatic 
sanctions by the United States, Japan, and other powers. Capital is a 
coward and foreigners will not invest in such an environment. There 
will be no permanent solution to the North Korean food crisis until 
there is a resolution of its profound diplomatic problems, and indeed, 
the diplomatic disputes have already substantially impeded the 
humanitarian aid program and its ameliorative impact. If a reduction of 
external tensions could be achieved, however, it would not only pave 
the way for expanded commerce but also could potentially yield a 
sizable peace dividend that would facilitate increased food imports.
    Even this would not be easy, however. North Korea is not a member 
of the International Monetary Fund or any of the multilateral 
development banks, and, to date, contact with these organizations has 
been minimal, limited to a couple of informational missions of brief 
duration. As multiple observers have emphasized, the DPRK's 
institutional capacity for managing development projects is woeful. In 
all likelihood, a prolonged period of technical assistance and 
capacity-building would be needed before substantial lending could 
occur. Once lending was underway, the initial focus would have to be on 
rehabilitating North Korea's badly deteriorated infrastructure as a 
necessary precursor to expanded private investment, for example by 
improving transportation links between mining areas and ports. The 
upside, of course, is that the degree of isolation and distortion 
embodied in the North Korean economy is so profound that with policy 
reform, investment and technology transfer, and expanded ties to the 
outside world (or even its immediate neighbors), the potential 
efficiency gains are enormous.\4\
---------------------------------------------------------------------------
    \4\ See Marcus Noland, Sherman Robinson, and Tao Wang, ``Rigorous 
Speculation: The Collapse and Revival of the North Korean Economy,'' 
World Development 28, no. 10 (2000) pp. 1767-88.
---------------------------------------------------------------------------
    And what if the diplomatic tumblers do not fall into place? The 
leadership of the DPRK regards ``survival'' as the first in a 
lexicographic set of preferences, and the regime has a history of 
confounding predictions of its demise. Moreover, for the last decade it 
has been enabled by neighbors who, for their own reasons, prefer its 
continued existence to its disappearance. The amount of external 
assistance necessary to keep it on ``survival rations'' is not 
large.\5\ Considerable research suggests that in the absence of a firm 
ideological commitment to reform, the provision of aid impedes policy 
change by enabling governments to avoid difficult and painful policy 
choices. There is little evidence that North Korea is seriously 
committed to reform--as opposed to regime maintenance--and as a 
consequence, it is reasonable to suppose that the availability of 
outside assistance will encourage the perpetuation of a strategy of 
muddling through. The problem is that such a strategy in all likelihood 
implies the continuation of the food crisis.
---------------------------------------------------------------------------
    \5\ See Anthony Michell, ``The Current North Korean Economy,'' in 
Marcus Noland ed. Economic Integration on the Korean Peninsula, 
Washington: Institute for International Economics (1998).

    Senator Brownback. Thank you, Dr. Noland. Thank you for 
putting that so succinctly, all of the testimony have put so 
succinctly.
    Dr. Noland, I just want to start briefly with you, if I 
could. As I mentioned, I do not have a long time before this 
vote, so concise answers would sure be appreciated.
    You suppositioned--and I really take Dr. Linton as well--
that North Korea, to have any sort of stable situation for the 
people, has to engage the international community in a 
normalized situation is what, I take it, you would conclude 
with. First, is that accurate?
    And I guess I would just challenge, it does not look like 
to me that anything is likely to happen very soon with the 
wrestling match that is going on about weapons, drug-running, 
refugees, gulags. And you have got a pretty tough system here 
that has got a lot to change before it is going to engage the 
international system.
    Dr. Noland. North Korea has a very high ratio of people to 
arable land. It is at a fairly high northerly latitude, has 
short growing seasons. It makes no sense for North Korea to try 
to achieve food security through self-sufficiency.
    Aid is precarious for the reasons you just mentioned--it is 
dependent on the diplomatic situation and that looks very bad.
    I do not believe the regime is interested in economic 
reform as we would understand it. It is simply trying to 
preserve itself. As a consequence, I think the most likely 
outcome is a continuing muddling through, which unfortunately 
implies a continuation of the food crisis.
    Dr. Linton. Could I add something to that? Again, I would 
like to get back to the point. I agree with Marcus that these 
folks have to create products and sell them on the 
international market in order to get ahead. In fact, that would 
be the best way to wean them off of some of the less legal ways 
that they have of generating hard currency. There is no 
question about that.
    But again, they really do not think that option is being 
given them, and I think absent some kind of limited opening on 
the sanctions issue that might allow them to manufacture and 
sell items related to life, shoes, clothing, whatnot, without 
that, they will probably continue to rely on mechanisms that we 
would not approve of to gain hard currency. Those are the 
options that they have to live with.
    Again, this mentality in their elite that the world is not 
a fair place and everybody has to use leverage and pressure in 
order to get what they want is in a sense a counter-market 
mentality that really needs to be challenged. So I would say 
that especially the United States with its resources that it 
has already put in there, if these resources could go in a way 
that encourages them to do real economic trade, that we might 
as a secondary balance begin to see some improvement in some of 
these other areas. But if we front-load it with requirements 
for concessions on this, that, and the other, we may just have 
a society that just bogs down, as Marcus has said, and muddles 
along and prolongs the misery for everyone.
    Senator Brownback. Just as you say that, though, this 
regime can choose to walk away from nuclear weapons 
development, or it could choose to walk away from a gulag 
system. This is one of the great repressive regimes that is 
left in the world. I think history shows that the path they 
have chosen has been horrific for their own people. They have 
the choice to do that as a regime.
    Dr. Linton. I think they clearly have the choice, and I 
would divide the gulag issue from the nuclear weapons issue. I 
do think though--and I am not trying to justify them in the 
process, but their own paranoia about survival is going to make 
it very difficult to walk away from some kind of suspicion that 
they may have some weapon. I think you can again cut down on 
the proliferation, and I think as an economy in East Asia, 
certainly as we have found in China, as an economy opens up and 
engages with the real world, a lot of the other problems, 
indirectly human rights problems as well, begin to go away.
    I do not think, though, that unless they engage or are 
given the opportunity to engage, that these problems are going 
to go away at the rate that we would like. Everybody knows 
where they want to go. It is a question of how you want to get 
there. North Korea has been vilified and condemned more than 
any nation that I know of in recent history, and it has not 
really helped much.
    Senator Brownback. And it has probably deserved it more----
    Dr. Linton. And it may deserve it, but it just has not 
worked. That is my point.
    Senator Brownback. Ms. Fenton, if I could, for you. The 
issue of what the Chinese are doing is clearly harmful to the 
North Koreans. In my experience of traveling to China and 
meeting with the Chinese leaders about this, going to the 
Chinese/North Korean border, they are not helping with this 
situation, the repatriation. What is it that we can do to 
really impress upon the Chinese that they are, in many 
respects, causing much of this huge level of suffering by 
thousands, if not millions, of North Koreans?
    Ms. Liang-Fenton. I think they are aware of that problem, 
but I think their imperative is to thwart a potential flood of 
refugees into the country. They do not want the economic or 
social burden of caring for an untold number of North Koreans 
if the border region becomes more relaxed. This was one of the 
reasons why they increased their crackdowns after the March 
rushing of the Spanish Embassy, the 25 North Korean defectors, 
the first very public display of that kind of escaping from 
North Korea. I think that is one of their main concerns. They 
do not want to open themselves up to having to look after an 
untold number of refugees.
    Senator Brownback. Are there other things you would suggest 
we do? You mentioned several in here about really getting the 
UNHCR to stand its ground of what it is entitled to do, to have 
the agreements that China has signed onto come into force on 
the refoulment that they are doing with North Korean refugees. 
Are there other ways that we can press on China to stand by the 
obligations that they have entered into?
    Ms. Liang-Fenton. Well, when they were placing their bid 
for the 2008 Olympics, this might have been an area where 
governments could use leverage. We understand you are 
mistreating North Korean refugees. We understand you want to 
host the 2008 Olympics. Is there a way that we can improve your 
chances, I guess, tacitly speaking, if you improve your 
treatment toward these people?
    Senator Brownback. So maybe watch for another point that 
may come along.
    Ms. Liang-Fenton. Another point of entry, yes, with China 
to latch onto a hook that--if we can use something that they 
want to help secure some protections for the refugees, that 
might be effective.
    It will be hard to get to China. They have a lot of other 
priorities. I think we can press for them to adhere to the 
agreements with the UNHCR, but we can also press for the UNHCR 
to invoke binding arbitration. They have not done that. I have 
heard testimonies that in Beijing they treat asylum seekers as 
nuisances. This is the international agency designed to help 
asylum seekers, and I think that would be a good entry for the 
U.S. Government to work with the U.N. to make sure that they 
are able to access the asylum seekers along the border region 
through this agreement with China.
    Senator Brownback. It has been my assessment of the U.N. 
High Commissioner on Refugees that he has been feckless in 
dealing with China, particularly on North Korean refugees.
    Dr. Hassig, you stated in your testimony that North Korea 
is basically an economy or a country that runs on bribes now.
    Dr. Hassig. Yes.
    Senator Brownback. Do you have any thoughts or experience 
about how long is that sustainable that a country runs on 
bribes? Do we have any experience of that? North Korea does 
seem to be following a model of a number of other economies, 
state-owned systems. When they fall down, they fall to the 
system because they just look for some way to survive. Are we 
in for a long period of this, or is it likely to change 
sometime soon to move away from a country run on bribes?
    Dr. Hassig. It is a very tough question to come up with a 
very clean answer. But in a recent North Korean study, I had an 
opportunity to interview a Russian specialist as well as a high 
ranking official from Poland, who both of them visited North 
Korea many times both during the Kim Il-sung and Kim Jong-il 
era. And both specialists basically explained that the analogy 
and similarity between the corruption of former Soviet Union 
and Eastern Europe on the one hand and corruption in North 
Korea on the other hand, was frighteningly similar. They 
predicted that North Korea's days are numbered, maybe you can 
count them on your fingers. But these two men are from a Judeo-
Christian background, they are Western analysts.
    In my understanding, North Korea's strength is that it is a 
Confucian family oriented traditional society that has survived 
from the 19th century to the 21st century, in the sense that in 
North Korean society, people are completely cutoff from outside 
information. Without their knowing about alternatives, I think 
the Kim Jong-il system is very strong. So as long as Kim Jong-
il and his top cadres have the power to control, I think no 
matter what kind of corruption exists in North Korean society, 
people will go to their deaths instead of staging any kind of 
revolution. So in that sense my answer is very pessimistic, 
unless we do something about bringing news to North Korea.
    Senator Brownback. Unless we do something about bringing 
news to North Korea.
    Dr. Hassig. Yes. As a matter of fact, I would like to 
present a publication that I did for my institute. It was an 
internally supported research grant study after my book was 
published. One of my recommendations in that book was that the 
North Korean people should decide their own fate. We have not 
given the North Korean people a chance to choose how they live. 
We have basically dealt with only the North Korean high level 
political leaders because we were driven by proliferation 
concerns. So this is the time maybe to think about how to bring 
the real news about the global world. Then let the people 
choose.
    My thinking is based on the fact that I came from South 
Korea originally. When I grew up, I grew up in a very, very 
totalitarian society, almost close to North Korean style: a 
dictatorial, military regime that cut its people off from all 
outside relationships. And if I remember correctly, in my high 
school days when I was reading Newsweek given to me by an 
American missionary friend, it was confiscated because it 
contained some bad remarks about the first military leader, 
President Park. And yet, because we South Koreans were 
eventually given the freedom to learn about the outside world, 
we changed the South Korean regime. So in that sense, bringing 
the news into North Korea is the first order of priority, in my 
understanding.
    And I will leave this publication for your reference and 
future study.
    Senator Brownback. Very good.
    There is some indication that information is starting to 
get into North Korea, and we have had panelists testify here 
today even about that. That is what I am continuing to get. 
More and more people that have gotten out or even refugees that 
have gotten out and then are repatriated back in, they are 
seeing things that they had not heard of before.
    Dr. Hassig. If I may interject one thing. Since I speak 
North Korean dialect--my parents were born in Pyongwon County 
which is considered to be North Korea's Fairfax County. Thay 
county has produced a lot of professional elite, it is one of 
the richest counties. I learned how to speak the North Korean 
dialect, and when Radio Free Asia recently asked me to be an 
informal adviser, I accepted. And I delivered a weekly 
commentary describing how Americans live and why we are living 
in this way under different leadership--delivered in Pyongwon 
dialect. I have been told that some defectors who listen to 
Radio Free Asia have been encouraged to look for an escape 
route.
    Dr. Linton. Senator, can I say one thing about this? We 
have a very, I think, wise and judicious policy of engaging 
North Korea on diplomatic and nuclear-related issues in a 
multilateral context. Nothing works better, however, than 
bilateral contexts in terms of humanitarian aid. I think our 
foundation is an example of that because we are known as an 
American operation. So while maintaining a multilateral 
approach on the nuclear and weapons issues, we really need to 
get more Americans--and I do not mean just regular Americans, 
but I mean government Americans--on the ground in North Korea 
because it proves itself again and again that the more access 
that is permitted and the more projects that go on in North 
Korea, the more they begin to have a better sense of what the 
real world is like and the more they begin to feel that perhaps 
the United States is not just only a hostile place.
    So I would really argue for a bilateral humanitarian 
effort. We say again and again that politics is separate from 
humanitarian issues, but then we go ahead and negotiate these 
things on the same table. I think we could teach the North 
Koreans a lot if we would do that, and it would probably lead 
to an intersection and eventually to the kinds of internal 
changes that we have seen in China.
    Senator Brownback. We put a lot of bilateral aid, as you 
know, into North Korea. The United States does.
    Dr. Linton. It is channeled through the U.N. which is the 
problem. The North Koreans ask again and again on the food 
issue. They said why does the U.S. Government not send State 
Department officials to deliver this aid. We will take them to 
the countryside. And we ought to take them up on that.
    Senator Brownback. Is it labeled in U.S. sacks?
    Dr. Linton. It is labeled in U.S. sacks, but it goes 
through an international agency. The worst part of it is 
Americans are not passing it out. We really need to get 
American diplomats, not only in Pyongyang, but throughout the 
country continuously engaged in humanitarian issues. And I 
would guarantee you, over a period of time, you would see a 
significant change in that society toward the United States.
    Senator Brownback. We will see about that. That regime 
could certainly choose that course as well.
    I want to thank the panelists for being here today for 
talking about the needs in the society. This is a different 
area that has not had as much focus that I think it clearly 
needs to have. There is a huge number of issues that the regime 
is causing to take place throughout, and what we hope to show 
is the true level of suffering that happens to the people as a 
result of this regime and, I might add, the Chinese not helping 
out the people of North Korea either.
    Thank you very much for joining us here today. It has been 
a very positive, very good hearing.
    [The prepared statement of the United States Commission on 
International Religious Freedom follows:]

   Prepared Statement of U.S. Commission on International Religious 
                                Freedom

                              INTRODUCTION

    The people of the Democratic People's Republic of Korea (North 
Korea or DPRK) are arguably the least free on earth, barely surviving 
under a totalitarian regime that denies basic human dignity and lets 
them starve while pursuing military might and weapons of mass 
destruction. By all accounts, there are no personal freedoms of any 
kind in North Korea, and no protection for human rights. Religious 
freedom does not exist, and what little religious activity that is 
permitted by the government is apparently staged for foreign visitors.
    North Korea is also a humanitarian disaster of unimaginable 
proportions. Failed economic policies and natural disasters have 
reportedly left 1 million or more North Koreans dead from starvation 
and disease in the last 10 years, and there may be countless millions 
more, particularly children, who are stunted in both their mental and 
physical growth. As awful as the physical toll has been, the 
deprivation of the human spirit must be even greater. Just how bad the 
situation is in North Korea is not known, since the ruling regime 
maintains strict control over communication media and the flow of 
information into and out of the country.

                      RELIGIOUS FREEDOM CONDITIONS

    Religious freedom remains non-existent in North Korea, where the 
government has a policy of actively discriminating against religious 
believers. The North Korean state severely represses public and private 
religious activities. The Commission has received reports that 
officials have arrested, imprisoned, tortured, and sometimes executed 
North Korean citizens who are found to have ties with overseas 
Christian evangelical groups operating across the border in China, as 
well as those who engage in unauthorized religious activities such as 
public religious expression and persuasion. Although access to updated 
information about North Korea remains limited, by all accounts, 
including testimony delivered at the Commission's hearing on North 
Korea in January 2002, there has not been any improvement in the 
conditions for religious freedom in the past year.
    In recent years, the government has formed several religious 
organizations that it controls for the purpose of severely restricting 
religious activities in the country. For example, the Korean Buddhist 
Federation prohibits Buddhist monks from worshiping at North Korean 
temples. Most of the remaining temples that have escaped government 
destruction since the Korean War are regarded as cultural relics rather 
than religious sites. Similarly, the Korean Christian Federation 
restricts Christian activities. Following the reported wholesale 
destruction of over 1,500 churches during Kim Il Sung's reign (1948-
1994), two Protestant churches and a Roman Catholic church, without a 
priest, opened in Pyongyang in 1988, even though the absence of a 
priest for Roman Catholics means that Mass cannot be celebrated and 
most sacraments cannot be performed. Several foreign residents have 
reported that they regularly attend services at these churches and that 
it is clear that whatever public religious activity exists, such as 
services at these churches, is staged for their benefit.
    Persons found carrying Bibles in public or distributing religious 
literature, or engaging in unauthorized religious activities such as 
public religious expression and persuasion are arrested and imprisoned. 
There continue to be reports of torture and execution of religious 
believers. Although the practice of imprisoning religious believers is 
reportedly widespread, the State Department has been unable to document 
fully the number of religious detainees or prisoners. The Commission 
learned from testimony by defectors and experts at its January 2002 
hearing, as well as subsequent reports, that prisoners held on the 
basis of their religious beliefs are treated worse than other inmates. 
For example, religious prisoners, especially Christians, are reportedly 
given the most dangerous tasks while in prison. In addition, they are 
subject to constant abuse from prison officials in an effort to force 
them to renounce their faith. When they refuse, these religious 
prisoners are often beaten and sometimes tortured to death.
    Officials have stratified North Korean society into 51 specific 
categories on the basis of family background and perceived loyalty to 
the regime. Religious adherents are by definition relegated to a lower 
category than others, receiving fewer privileges and opportunities, 
such as education and employment. Persons in lower categories have 
reportedly been denied food aid. Thousands of North Koreans have fled 
to China in recent years. Refugees who are either forcibly repatriated 
or captured after having voluntarily returned to the DPRK are accused 
of treason; those found to have had contacts with South Koreans or 
Christian missionaries are subjected to severe punishment, including 
the death penalty.

                       COMMISSION RECOMMENDATIONS

    In recent years, an increasing number of foreign government 
officials, journalists, and representatives of NGOs have visited the 
DPRK and presented their observations about conditions in that country. 
At the same time, thousands of North Korean refugees have left the 
country with information on conditions there. However, the highly 
totalitarian state in North Korea still maintains such tight control 
over all aspects of state and society that garnering verifiable 
information about conditions in that country, as well as how the regime 
operates, is very difficult. This greatly complicates the process of 
determining specific problem areas and, consequently, well-calibrated 
solutions.
    The U.S. should make every effort to encourage the DPRK government 
to maintain its currently limited contacts with the outside world and 
to open the country to individuals, organizations, and governments 
concerned about the plight of the North Korean people and who want to 
help. At the same time, the U.S. government should, in its dialogue 
with the DPRK on issues of concern, also press the North Korean 
government to allow foreign human rights monitors and humanitarian 
agencies access to all parts of the country.
    The Commission makes the following recommendations:

  <bullet> The U.S. government should develop and support ways to 
        provide information to the people of North Korea, including 
        Voice of America and Radio Free Asia broadcasts, channels of 
        people-to-people exchange, and other forms of contact with 
        North Koreans, particularly on religious freedom and other 
        human rights issues.

  <bullet> The U.S. government should urge China, Russia, and other 
        members of the international community to grant refugee status 
        to North Koreans.

  <bullet> The U.S. government should urge the Chinese government to 
        allow South Koreans and international NGOs greater access to 
        northern China and greater capacity to serve the needs of North 
        Korean refugees.

  <bullet> In any discussions regarding humanitarian assistance, the 
        U.S. government should urge the North Korean government to 
        allow considerable expansion of both the amount of assistance 
        and the number of providers, which should include non-
        governmental organizations.

  <bullet> With all humanitarian assistance to North Korea, the U.S. 
        government should work to ensure that the delivery of such aid 
        is adequately monitored. Monitors should be able to read, 
        speak, and understand the Korean language. The United States 
        should ensure that delivery of U.S. and other foreign aid is 
        not misrepresented by the North Korean government through false 
        claims that the aid is being provided by that government.

  <bullet> The U.S. Congress should expand its funding for (a) 
        organizations advocating the protection of human rights in 
        North Korea and (b) activities that raise the awareness of 
        human rights conditions in that country.

  <bullet> The U.S. government should launch a major international 
        initiative to expose and raise awareness of human rights abuses 
        and humanitarian conditions in North Korea, including expanded 
        U.S. government reporting, congressional engagement, and 
        multilateral diplomacy.

    Senator Brownback. The hearing is adjourned.
    [Whereupon, at 3:34 p.m., the subcommittee adjourned, to 
reconvene subject to the call of the Chair.]

                                   - 

</pre></body></html>
